<html>
<title> - [H.A.S.C. No. 114-61]GAME CHANGERS -- UNDERSEA WARFARE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-61]

                    GAME CHANGERS--UNDERSEA WARFARE

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 27, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-495                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                                     


                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Clark, Bryan, Senior Fellow, Center for Strategic and Budgetary 
  Assessments....................................................     5
Connor, VADM Michael J., USN (Ret.), Former Commander, Submarine 
  Forces.........................................................     3

                                APPENDIX

Prepared Statements:

    Clark, Bryan.................................................    46
    Connor, VADM Michael J.......................................    37
    Courtney, Hon. Joe...........................................    35
    Forbes, Hon. J. Randy........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cook.....................................................    65
    Mr. Langevin.................................................    59
    
    
    
    
    
    
    
    
    
                    GAME CHANGERS--UNDERSEA WARFARE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Tuesday, October 27, 2015.
    The subcommittee met, pursuant to call, at 2:45 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. As the members of this subcommittee and our 
witnesses are well aware, America's ability to project power 
overseas is currently being challenged by the rapid growth of 
other nations' military forces and the fielding of novel 
capabilities that undermine our freedom of maneuver and action 
and threaten to deprive our Nation of the many benefits we 
derive from our command of the seas. If we remain on our 
present trajectory, I fear we may see our seapower and power 
projection capabilities eclipsed and our influence eroded in 
critical regions overseas.
    In the past, Congress has responded to similar threats by 
undertaking great expansions of our air and maritime forces. 
Championed by legislators like Carl Vinson, these buildups 
reenergized American seapower and projection forces and 
sustained them for another generation.
    Given the challenges and constraints we face today, 
however, I believe a different response from Congress and the 
Pentagon is required. Building more things will be part of the 
solution, but it is my belief that what we really need at 
present are new things, innovative capabilities and concepts 
that will, quote, ``change the game'' in the many areas of 
military competition where the trends are unfavorable.
    Today this subcommittee kicks off a series of hearings 
examining potentially game-changing concepts and capabilities 
with a look at the undersea domain. This is a domain in which 
the United States has for decades been dominant and benefited 
immensely from it. Our superiority in this domain has enabled 
the United States to collect sensitive intelligence, hold at 
risk foreign fleets, attack targets on land without warning, 
and maintain the secure second-strike capability that is 
essential for deterrence.
    While surface ships and forces ashore are coming under 
increased threat from anti-access/area-denial [A2/AD] 
capabilities and being forced to operate at longer ranges, U.S. 
submarines still enjoy freedom of maneuver and the ability to 
operate with near impunity under the sea. In the view of many 
respected defense leaders and analysts, this provides an 
enduring strategic advantage that the United States should 
leverage to offset competitors' growing strength in other 
areas.
    Unfortunately, as with so many elements of our fleet, the 
demand for undersea forces currently exceeds the supply, and 
the situation is forecasted to grow worse. At present, the U.S. 
submarine fleet is able to meet only 65 percent of commanders' 
requests for forces. Under current plans, the Navy's submarine 
fleet will shrink by 25 percent between now and 2030, with our 
fleet of attack submarines shrinking from 53 to 41 boats. Over 
that same period, we stand to lose 60 percent of our undersea 
payload capacity as our four SSGNs [cruise missile submarines] 
are retired from service.
    So, at a time when our submarine force will likely be 
called upon to do more than ever, it is also going to be at its 
smallest size since World War II. At the same time, our 
existing sensors and weapons should be expected to decline in 
effectiveness as our adversaries' own capabilities improve.
    Fortunately, the submarine community is aware of the 
challenges and opportunities it faces, and we are privileged to 
have two of its leading thinkers here before us to discuss 
them: Retired Vice Admiral Michael J. Connor, former commander 
of Submarine Forces--Admiral, thank you for being here today--
and Mr. Bryan Clark, senior fellow at the Center for Strategic 
and Budgetary Assessments [CSBA].
    Bryan, thank you for joining us.
    These two submariners have been at the forefront of 
undersea innovation, and I am eager to hear from them as to 
what new undersea concepts and capabilities the Navy is 
currently developing and what more might be done to sustain and 
exploit our dominance in that critically important domain.
    And, with that, I turn to another leading proponent of 
America's undersea power, our ranking member, Mr. Joe Courtney 
of Connecticut.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman.
    I have a statement, which, again, I am going to have 
introduced into the record, and just really summarize really 
quickly by saying, you know, over the last 7 or 8 years, with 
the help of both of our witnesses here, you know, we actually, 
I think, have sort of reasserted the priority of our undersea 
force, kick-starting the Virginia-class production program to 
two a year, getting the design work on track for the Ohio 
Replacement Program. The Virginia Payload Module [VPM], which 
the chairman referred to, is, you know, filling a critical 
payload gap which is going to occur when the SSGNs go offline.
    But the fact is we still have other challenges ahead of us, 
as I think we will hear from the witnesses. You know, the rest 
of the world has not sort of stayed frozen in the post-Cold War 
era. And, again, we can't have two better witnesses to sort of 
walk us through about where, you know, this committee should be 
focused in terms of trying to have a force multiplier to fill 
those gaps that the chairman referred to in terms of the 
combatant command [COCOM] and its requests, which are not going 
to be met, and that is probably going to get a little tougher 
as the fleet size declines in the next few years or so, and 
really trying to get, again, Congress focused on this, just 
like we were able to with the Virginia program and with the 
Ohio Replacement Program.
    And that is really, I think, the purpose of this hearing. 
And hopefully we are going to get some good ideas in terms of 
ways we can improve, you know, our budgeting and authorization 
process to make sure that, again, we just don't lose that, you 
know, incredibly important edge that our country has in terms 
of the undersea domain.
    So, again, I want to thank both witnesses for being here 
today, and particularly Admiral Connor, who is now, you know, 
back where he belongs, in southeastern Connecticut, and, 
obviously, though, here today still helping our Nation.
    So, with that, I will yield back, Mr. Chairman.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 35.]
    Mr. Forbes. Joe, thank you.
    And one of the things that we often say for opening 
statements is we tell our witnesses: You don't need to read 
your opening statement. You can make it a part of the record 
and just talk to us.
    But today I want to emphasize how important both of these 
opening statements are. They are two of the best that I have 
read in a long time. And we are going to be encouraging our 
subcommittee members to read both of your statements, because I 
think they were just both excellent. So I thank you for the 
thought that you put into those statements and for the ideas 
contained in there.
    And I encourage anybody today who hasn't read them to make 
sure you get a copy and read the full text that both of these 
gentlemen have put in their statements, because they are both 
excellent.
    And, with that, Admiral Connor, I think we are going to 
start off with you, and we would love to hear your thoughts and 
comments. And thank you once again for your service to our 
country and for being here today.

    STATEMENT OF VADM MICHAEL J. CONNOR, USN (RET.), FORMER 
                  COMMANDER, SUBMARINE FORCES

    Admiral Connor. Well, thank you, Chairman Forbes, 
Congressman Courtney, and, really, all the members of the 
committee and staff. I would like to just briefly thank you for 
the support that I saw very clearly during my tenure as 
commander of the submarine force, as this committee reversed 
the decline of the submarine force, got us back to two a year, 
and has us--although the numbers will go down for a while, you 
stabilized the situation.
    And it is your long-term commitment to Navy shipbuilding 
that is allowing things like the Virginia-class program to 
deliver such high-quality submarines ahead of schedule and 
under budget. It is because we have a fairly predictable 
future. Thank you for that.
    I have a few suggestions. They are contained in my 
statement that I have submitted for the record. I will 
summarize them here.
    The first point is that, while we talk about game-changing 
capabilities, many of which come in the form of vehicles, 
manned and unmanned and so forth and things we called payloads, 
it is important to keep in mind that those game-changing 
capabilities rest on the foundation of superior platforms that 
give us an operational advantage when we go head-to-head with 
the adversary. And the things that we bring to bear after that 
tend, in many cases, to leverage that capability. And it is a 
very important part. The other capabilities are not standalone.
    The first point I want to make is that, in the game-
changing capability, we need to start thinking in terms of 
range--range of weapons that we deliver under the water and 
above the water. It is important from the perspective that, as 
we look forward into a world where we present asymmetric 
challenges to our adversaries, that we take our superior 
platforms and then extend the range at which they can impart 
their effects across the theater. That is a true quandary for 
our adversaries, when they know that a submarine, for example, 
that they cannot detect has the ability to strike on short 
notice across a very wide area.
    So, in the area of torpedoes, we are looking at, as the 
Navy restarts heavyweight torpedo production, they do that with 
a mind to increase the range of those weapons and then increase 
the ability to communicate with those weapons when they are 
far, far from the ship that launched them, even to the point 
where another aircraft or satellite relay may actually 
determine the final homing of that weapon.
    The next point is that we need to get back into the 
business of submarine-delivered anti-ship missiles that can 
strike at very long ranges. This presents a huge quandary for 
our adversaries, who have to maintain an air defense posture if 
they are concerned that there might be a submarine in the area 
even if they can tell that there are no surface ships in the 
area. That is a true tax on their system. It changes their 
weapon load-out, it changes their radar posture, and it 
significantly helps our ability to track them.
    The next point is, as we look at how in this world going 
forward where we have many, many commitments to know what is 
going on under the water in more areas than ever before, we 
have to change the way that we do that. We have to shift from 
relying on a small number of highly capable but fairly 
relatively expensive platforms to do it in a much more 
pervasive way with large numbers of smaller, less expensive 
things.
    The good news is that the technology that we have today 
will allow us to do that. The advancements that have been made 
in robotics and autonomy and propulsion, in harvesting ocean 
power, have opened the door for those who are creative to make 
major, major improvements in how we sense what is going on in 
the ocean.
    And my last major point is that, if we are going to 
leverage this type of opportunity, we have to be able to move 
much faster in the future on the technological front than we 
did in the past. And we will certainly need the help of the 
Congress in doing that.
    We live in a world where the technology cycle is about 2 to 
3 years long, and we also live in a world today with a typical 
program cycle, from inception of idea to funding and 
production, that can be 3 to 5 to 7 years. We cannot live in 
that world and keep pace with the technology of today. We will 
need your help in that, and we can talk about that later.
    That summarizes my statement. I am ready for your 
questions, Chairman.
    [The prepared statement of Admiral Connor can be found in 
the Appendix on page 37.]
    Mr. Forbes. Admiral, thank you so much.
    And, Mr. Clark, you are not a stranger to this 
subcommittee. We thank you for being here again and look 
forward to your comments.
    And, with that, we yield you the floor.

 STATEMENT OF BRYAN CLARK, SENIOR FELLOW, CENTER FOR STRATEGIC 
                   AND BUDGETARY ASSESSMENTS

    Mr. Clark. Thank you, Chairman Forbes and Congressman 
Courtney, for inviting me to testify today. And I am honored to 
be here with Admiral Connor, who is my former boss and a 
visionary leader in undersea warfare. It is truly a great honor 
for me to be here with him today.
    This is a terrific topic for the first in the series of 
game-changing warfare area examinations, because today undersea 
warfare is something that the United States depends upon 
fundamentally for a lot of its war plans and a lot of its 
defense strategies as our way to get access to places that 
enemies with growing anti-access capabilities want to keep us 
out of. So we have to be able to sustain our level of dominance 
that we currently have in the undersea.
    That dominance is likely to be challenged here in the 
coming years, with the advent of new technologies and the 
advent of more visionist powers. And you have heard of 
deployments of Russian submarines out of their normal bastions 
or out of their normal local areas, deployments of Russian 
ships that are, you know, potentially looking at undersea 
cables, and the growing Chinese submarine fleet.
    So, clearly, there are competitors to the United States in 
the undersea domain that are going to look to take advantage of 
emerging technologies to establish their own capabilities to 
either deny us the ability to use the undersea or to use it to 
their own advantage.
    So we can look at opportunities here, some game-changing 
opportunities, to sustain our undersea advantage that we enjoy 
today and then to, going forward, establish an enduring 
advantage against those new competitors.
    I think there are three major areas where these 
technological changes are coming that our adversaries might be 
able to leverage, with the leveling of the technological 
playing field, but that we can also take advantage of ourself 
and that we need to.
    The first one is new capabilities to detect submarines and 
also in technologies that would prevent detection of 
submarines. So you will see a competition ensue between 
detection and counter-detection, which wouldn't be dissimilar 
to what we see above the water when it comes to radar and 
electronic warfare that we are sort of familiar with.
    The second area is in the power and autonomy of unmanned 
systems, so unmanned undersea vehicles as well as unmanned 
systems that you would deploy on the sea floor, like sensors or 
modules that would contain weapons and other payloads.
    The third major area--and this gets to something Admiral 
Connor just talked about--is in the area of payloads, so in the 
kinds of things that you would carry on an undersea platform or 
on a ship that would deploy things undersea, so advancements in 
communications technology for under the water, advancements in 
the capability of weapons to be able to go long distances and 
to also be able to find targets undersea, and then also in the 
ability of these systems to communicate with one another and 
network with one another and coordinate their operations 
undersea.
    So those three main areas of technology development offer 
opportunities for us as well as to our adversaries. These new 
technologies, though, will not make the oceans transparent in 
the near term or anytime in the future, probably, and they are 
not going to erode our dominance overnight. So we can take 
advantage of this time period in which we still have the 
advantage to invest in them.
    What we need to do is--or just some key features of this 
future competition that are likely to occur are six major 
areas, so what I think we are going to end up with as a new 
basis for submarine detection that is going to emerge out of 
these sets of game-changing technology.
    So we are used to passive sonar being the primary means by 
which we detect a submarine. So we listen under water, a 
submarine makes noise, we detect that noise and go attack the 
submarine. Well, as submarines have become quieter, that has 
become less possible. And, also, as adversaries have tried to 
develop their own anti-submarine warfare [ASW] capabilities, 
they are moving into new areas like active sonar and getting 
away from the idea of listening for the submarine and, instead, 
just using active sonar to bounce sound off of a submarine.
    So that is going to create new requirements for the U.S. to 
be able to protect their submarines from detection. That is 
going to create a counter-ASW competition, and so that is 
something that we can look at both gaining advantage in and 
being able to use against our enemies.
    We are also going to see the advent of undersea families of 
systems, or undersea systems of systems, where you have 
submarines and unmanned systems both on the sea floor and 
mobile ones, like unmanned vehicles, working with one another, 
communicating with one another to accomplish a mission, not 
dissimilar from how you see aircraft today.
    So, today, with integrated fire control systems, you see an 
AWACS [Airborne Warning and Control System] aircraft being able 
to find targets and then direct fighter aircraft to go 
intercept those targets. You will see a similar emergence in 
the undersea, where manned platforms and unmanned platforms are 
going to be interacting in these families-of-systems 
constructs.
    We are going to see probably the advent of seabed warfare, 
where the ability to find things underwater becomes very 
important and the ability to install them or remove them 
becomes very important, and whoever can do that better than the 
other competitor is likely to gain an advantage going forward. 
And you can see that even right now with the efforts the 
Russians are taking to try to identify and locate undersea 
cables.
    And the last feature of this competition you are likely to 
see is the focus on cost imposition rather than attrition. So 
our normal model of warfare is we try to destroy the other 
guy's forces, kill as many of his people as possible, break as 
much of his stuff as possible. In the undersea, it is different 
because it is very hard to find things undersea, it is very 
hard to close the kill chain to destroy them. And so, as a 
result, you are going to see efforts to try to just impose 
costs on the enemy, force them to be always on the defensive, 
as Admiral Connor said, rather than trying to kill them 
outright. So we can look for ways to take advantage of that as 
the U.S., as opposed to that being used against us.
    Some things that the Navy should do to take advantage of 
the technologies that are available and get ahead in this next 
phase of competition are five main things.
    So first is to sustain and expand our submarine capacity. 
Because, as you noted, Congressman Forbes, we are going to have 
a reduction in overall submarine capacity here in the coming 
years where it is just actually going to go below the Navy's 
identified requirement of 48, and then we are also going to 
have the reduction in overall capacity with the retirement of 
the SSGNs. So looking at ways to be able to mitigate that 
reduction in overall submarine capacity will be important.
    We need to achieve organizational alignment in the 
development of our undersea systems. Today, it is sort of a 
letting-all-the-flowers-grow effort, where we try to let 
everything come up and see which of these undersea systems, 
like an unmanned system or a sensor, is going to show promise. 
And, instead, we need to be a little bit more focused about how 
we manage and structure that effort.
    We need to ensure that the new SSBN [ballistic missile 
submarine] will be survivable in an environment where new ASW 
methods, new submarine-detection methods are becoming common. 
And looking out 50 years or more into the future for that new 
SSBN, it is going to be hard to figure out what is the new ASW 
technique of the future going to be, but we have to have that 
determination and make those systems part of that submarine.
    We need to establish priorities for unmanned underwater 
vehicle design and where they should be focused, for example, 
what mission should they be focused on and what sizes and 
capabilities do they need to have, as opposed to kind of the 
bottom-up approach that is proceeding today.
    We need to look at how we evolve our SSNs [attack 
submarines] for new roles. Our attack submarines are going to 
be the heart of this undersea family of systems, so they need 
to be equipped and have the payload capacity to do so. So 
things like the Virginia Payload Module are very important. 
Maybe that should be part of every Virginia-class submarine in 
Block V rather than simply half of them.
    And then the last thing is moving undersea systems from the 
research and development [R&D] community into acquisition. 
Because today a lot of these systems are languishing, waiting 
to transition into acquisition programs because of a lack of 
requirements or a lack of organizational wherewithal to push 
them across the ``valley of death'' and become something that 
is actually fielded as part of the fleet rather than an 
experiment that is done once or twice and looks good but never 
actually becomes part of our overall approach to undersea 
warfare.
    So, in conclusion, I would say that the undersea--you know, 
America can certainly sustain its undersea advantage and impose 
costs on its enemies using the undersea, but we have to evolve 
our approach and evolve the capabilities that we are developing 
to be able to take advantage of the technologies that are 
emerging and be able to do that in the future.
    Thank you.
    [The prepared statement of Mr. Clark can be found in the 
Appendix on page 46.]
    Mr. Forbes. Thank you, Mr. Clark.
    And to our witnesses, again, thank you for being here.
    This subcommittee is one of the most bipartisan 
subcommittees in Congress. And while we go outside these doors, 
we maybe differ on a lot of different things, we may be 
parochial in nature, we may have other issues, when we come in 
here, we are pretty much Team USA, you know, in how we do the 
best that we can do to defend and protect the United States of 
America.
    One of the things I want to encourage subcommittee members 
to do--and Mr. Courtney and I both concur in this--for those of 
you who might have gotten here after our opening, we normally 
don't emphasize that you read the opening remarks. You can do 
that if you want to or not. These are two of the best opening 
comments that I think Joe and I both have seen in a long time 
that really outline this area. So I would just encourage all of 
our members to read those two opening remarks in their 
entirety.
    And, as I look at those, to both of you, we are oftentimes 
tasked with looking at charts of platforms. And so we can look 
at number of SSBNs we have, how many we need, we can look at 
the Virginia attack subs, how many we need, how we are going to 
compare, look at our surface ships.
    But, as I look at both of your written testimony as well as 
what you have verbally stated here today, it seems like what 
you are talking about in the future is we are going to have to, 
instead of just building more subs, which is important that we 
do, we are going to have to create these systems of systems 
that you talk about so that the subs that we have can be 
multiplied, not by having more subs only but by having systems 
that expand their both capacity and capability, I guess, in 
doing that.
    And two of the problems that we have--Mr. Connor, you 
specifically outlined these in your written testimony. But we 
are going to have to be on the innovative edge if we do that. 
And innovation sometimes means coming up with the ideas but 
also being able to get to those ideas.
    And the two concepts that I thought were pretty intriguing 
that you put out was, first of all, just with our normal budget 
process, it takes a year for one of our services to come up 
with their budget, and then it takes a year, on a good year, 
for us to be able to match that budget and get it to the 
President. And by that time, oftentimes the shelf life of the 
innovation has run out.
    So I think both of you are concurring that we have to find, 
as to the innovation piece, how we do that faster. And so we 
would look, one, for your ideas on that, maybe an elaboration 
on that.
    But the second thing--and I thought this is something we 
need to really look at too--is the concept of failure. We have 
developed a culture now where, if we fail, any platform, it is 
like the most horrendous thing that has ever taken place. And I 
think, Admiral, your thoughts on that would be, if we are not 
failing, we are not innovating. And you point out in your 
testimony that in Silicon Valley they are going to have a 90 
percent failure rate. So even if we had a 50 percent failure 
rate, that is not a bad thing.
    So I was wondering if the two of you could just kind of 
give us your thoughts on those concepts.
    Admiral Connor. I would be happy to, Chairman.
    And you described the limitations of the budget process 
very well. Even some of the tools that we have used to overcome 
the process, so to speak--we have a program we call Speed to 
Fleet, which behind closed doors we call the NBA [National 
Basketball Association] playoffs because what happens is that, 
over the course of a year, we compete various technologies 
within the Navy to decide which ones will get funded in the 
next budget. And the problem with even that is that is a year-
long process, to do your fast project. It just doesn't make 
sense.
    So, to a certain degree, I think the Congress and then 
whoever they select within the Department of Defense [DOD] to 
administer the program would have to create and oversee very 
much a venture-capital-like approach to innovation. The money 
has to be set aside. The money should be invested in projects 
that have credibility, that people can demonstrate why they 
have credibility. There ought to be milestones involved in that 
process, where people come back and show that they are on track 
and harvesting the results or making the progress that they 
intended to make--or not.
    And the ``or not'' piece comes into your failure rate you 
talked about. And if something seemed like a good idea but the 
physics don't work out or the concept of operations is 
untenable, then there may come a point in some of the 
applications when we just say that this isn't working, we are 
going to stop, we are going to file the lessons away, and we 
are going to learn from it, but we are going to stop here and 
put that money where it can move us forward faster.
    That may seem like a start-and-go-type process, but, at the 
end of the day, if you look at the way that works in other 
arenas, you make more forward progress by being bolder and 
making more bold attempts, even when you have occasional or 
even frequent failure in the process.
    Mr. Clark. So I would have two things that the Congress 
could do, potentially.
    So one would be related to how do you incentivize the 
research organizations with regard to the things they pursue?
    Today, research organizations in the Department are 
incentivized to transition things into the warfighters' hands. 
So they are graded on how well the projects they pursue end up 
turning into an acquisition program, or at least part of an 
acquisition program. Even an organization like DARPA [Defense 
Advanced Research Projects Agency] feels pressure to transition 
more capabilities into the warfighters' hands.
    What that does, though, is it makes them, over time, shift 
from a focus on bold, innovative, game-changing ideas to things 
that are more evolutionary and less disruptive and more likely 
to turn into an operational capability that will turn into an 
acquisition program.
    So one thing the Congress could do would be to incentivize 
a focus within these organizations, particularly the DARPAs and 
the S&T [science and technology] organizations, on more 
disruptive ideas that are more revolutionary. And so this comes 
to, how do we report this?
    So the reporting requirements for technology programs are 
generally: How well did they transition? What is the percentage 
of transition? And then how fast did they transition? Things 
that take too long or things that don't transition are not 
rewarded, and things that do are rewarded.
    If instead we ask and there are reporting requirements to 
say, characterize how your technology programs were in terms of 
how disruptive they were to the status quo in terms of 
technologies and how revolutionary were their operating 
concepts, that would be a way to incentivize organizations to 
move in the direction that they should be, which is bolder 
ideas that are going to be able to change the way we operate 
more dramatically than potentially just coming up with 
evolutionary changes that simply move the ball a little bit 
further down the field.
    And I am thinking mostly of a DARPA-type model here. DARPA 
should be incentivized to pursue those game-changing 
technologies, but today they feel like they need to transition 
things to the warfighter, and, as a result, you are seeing a 
dulling of that focus on game-changing technologies.
    So that is one thing, in terms of how do we--you know, we 
can incentivize them through reporting requirements and through 
driving them to take more risk and accept more failure in terms 
of how the Congress deals with these organizations.
    I would say that the second thing is, in terms of getting 
the new capabilities more quickly into the warfighters' hands, 
because of the budget process and this 2-year delay that you 
discussed, maybe we should formalize an opportunity during the 
development of the appropriations and authorizations bills for 
the Department to come back and make changes, in consultation 
and coordination with Congress, to accommodate the fact that 
certain programs in those 2 years may have shown a lot of 
promise and should get more money, but, you know, our budget 
has been in stasis for the last 2 years. So we don't have that 
opportunity until the budget has been issued and a 
reprogramming is conducted.
    So, instead of waiting for that reprogramming, change that 
appropriation while the appropriations bill is being developed 
over here on the Hill. It gives the Department a second 
opportunity to make changes to those small technology programs, 
some of which may have failed in the ensuing year and a half or 
some of which have shown great promise and need to be fostered 
further.
    Mr. Forbes. Well, thank you both. And our subcommittee is 
going be looking to both of you two as we go down the road, 
perhaps, to laser in on some of these changes that we can do. 
We heard in the full committee just earlier today that one of 
the difficulties we have is a lack of competition now. So they 
said, before, a lot of our innovation came from the fact that 
the loser would create the innovation for the next time, and 
today we don't have that situation. So this is something I 
think is very, very important as we move forward.
    Mr. Courtney is recognized for any questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, again, I just want to reiterate your comments about 
the testimony. Again, I just think it is--I would really 
encourage all the members and, frankly, the whole committee to 
take a look at it. Because, you know, clearly, the sort of 
post-Cold War holiday in the undersea realm is over, and, you 
know, the world is changing. And you guys really focused on it, 
you know, just in a really important way. So thank you, to both 
of you.
    Mr. Clark, you talked a little bit about the Virginia 
Payload Module program, which, again, is right before us--
actually, it is in the budget--in the authorization this year. 
At this point, again, it doesn't look like it is going to 
commence until 2019----
    Mr. Clark. Right.
    Mr. Courtney [continuing]. With Block V. Again, the Navy 
shipbuilding plan, though, as you noted, is for only one out of 
the two a year Virginia classes, to incorporate that.
    I mean, given the fact that--I mean, it is clear we are not 
only just talking about strike capability but also, you know, 
the family of systems, as you said. I mean, should we be 
looking at maybe trying to modify that proposal to, again, 
maximize the benefit of that modification?
    Mr. Clark. Definitely.
    If you look at the cost of the Block V Virginia-class 
submarine with the VPM, it is going to cost less, in constant-
year dollars, than the original Block III cost because of the 
cost savings that have been incorporated into the program 
through the design-for-affordability efforts and by the other 
efforts that EB [Electric Boat] and HII [Huntington Ingalls 
Industries] have taken to reduce the cost of building the ship. 
And you can see that in how fast they build them and how early 
they are completed. That translates into lower costs.
    So the submarines are going to cost less money than their 
predecessors while offering more capability. So we should take 
advantage of that opportunity and expand the number that we are 
purchasing, because we need this capacity not just to replace 
the SSGNs, as you noted, for their strike capacity but also to 
enable these submarines to be the host and coordination 
platforms going into the future.
    Because the model we have to start thinking of for the 
submarine is less of the tactical aircraft that goes into 
harm's way alone and unafraid and more like the aircraft 
carrier model, where it is the centerpiece of a family of 
systems that are operating in conjunction with it, some of 
which would come from the platform itself, and some may come 
from somewhere else. But that payload capacity is essential to 
afford it the ability to be that aircraft carrier of the 
undersea.
    Mr. Courtney. And, Admiral Connor, again, you devised this 
undersea dominance campaign. If we have non-VPM Virginia-class 
subs versus those with the module, I mean, can you just talk a 
little bit about, you know, what the difference would be in 
terms of trying to implement that plan?
    Admiral Connor. Congressman, I would be happy to do that.
    The first point I would like to make is that it is a lot 
easier to be building subs in parallel that are exactly the 
same than to be having two variants coming off the line 
depending on what time of year it is because there are nuances 
there. So there are efficiencies that I believe would show up 
in production that probably aren't reflected in the way we 
calculate costs ahead of time.
    The other issue, though, is, as we look to a world where we 
will intentionally pursue a path with a wide range of 
technologies--numerous less expensive technologies that we 
solve hard problems with numbers of small things--having the 
capacity built in place to deploy and retrieve things, even 
things that we haven't invented yet, would be a very important 
part of our strategic planning.
    While we work in a timeframe probably with payloads and 
vehicles that become obsolete in 3 to 5 years, we have to plan 
on ships that are around for 30 to 40 years. And to make 
decisions today that would discount their ability to handle a 
wider range of payloads, I think, is worth reconsidering.
    Mr. Courtney. And your comments about anti-ship missiles, I 
mean, again, that also sort of fits into the Virginia payload, 
you know, capacity, just to have more----
    Admiral Connor. Very much so. If you just would take, you 
know, the typical range of a Tomahawk missile today, which I 
think you all know, and say that were an anti-ship missile, and 
you would draw a radius around a submarine operating undetected 
in some part of the world, and the fact that that ship could 
impose a mission kill on pretty much anyone they chose, using 
technology that exists in other missile areas today and 
applying it to a missile that we know we can fly off a 
submarine, that is a pretty huge quandary, as I said, for the 
adversary.
    So the more capacity you have to employ those types of 
things, at the same time that you have these other payload 
options for sensing and so forth, would be critical.
    Mr. Courtney. Great.
    Thank you to both of you.
    I yield back.
    Mr. Forbes. Mr. Clark, did you have a----
    Mr. Clark. One thing I would add to that, too, on the 
payload capacity, what is really important is some people might 
argue that, well, if I try to use an anti-ship missile like the 
Tomahawk to attack a high-end destroyer of the Chinese, they 
will probably shoot it down. And I would argue that, well, if I 
shoot 10 or 12 Tomahawks at them, they may not shoot all of 
them down; all it takes is one to get through.
    That would be a very good cost tradeoff. If I am paying for 
10 or 12 Tomahawks at about a million dollars apiece to destroy 
a $1.5 billion or $2 billion Chinese destroyer, that would be a 
good tradeoff to accept.
    Mr. Forbes. Okay.
    Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Vice Admiral Connor and Mr. Clark, thanks so much for 
joining us today. Some interesting points about what we need to 
do to dominate in the undersea realm.
    I want to expand from your concepts about using the 
submarine as kind of the centerpiece and having a number of 
systems that work in a dependence or in relation to the 
submarine itself, whether it is UUVs [unmanned underwater 
vehicles] or UAVs [unmanned aerial vehicles]. Great concept. I 
think the carrier strike group concept with the submarine is a 
great way to go about that. It lets us leverage an awful lot of 
different systems on different platforms and creates lots of 
uncertainty for our adversaries.
    One thing, too, in a resource-restricted environment, which 
is where we are going to find ourselves, I think, at least now 
and into the foreseeable future, is we see our adversaries not 
only use nuclear-powered submarines, but we also see them use 
diesel-powered submarines.
    Give us your perspective about us having a fleet with some 
of those other platforms, a diesel-powered submarine. I think 
the technology is there, and we can build those for half the 
price of nuclear submarines. Nuclear submarines certainly have 
a place, but the question is, our adversaries have significant 
numerical advantage, and, as the saying goes, quantity has a 
quality all its own.
    What do we do, in looking at the ever-expanding numbers of 
our adversaries? And is there a place for diesel submarines as 
a platform, to look at something that is in addition to UUVs 
and UAVs, as we create these undersea systems?
    Admiral Connor. Congressman, I have studied this issue a 
fair amount. I have been both the submarine commander and the 
anti-submarine commander in the Western Pacific, Arabian Gulf, 
and the Atlantic, and these are the types of things that I 
thought about every day.
    What I found is the argument that suggested that the 
quantity of diesel submarines is a quality all its own is true 
if and only if the theater of operations is very constrained. 
And what you can do if you are the anti-submarine commander and 
the adversary is a diesel or even a diesel with air-independent 
propulsion capability, the energy density they have just isn't 
there. They can't move, on average, more than about 100 miles a 
day without resorting to coming shallow and operating their 
engines and therefore exposing themselves.
    So I would contend that while a diesel submarine does not 
replace a nuclear submarine, because we can go much further, 
much faster at quiet speeds, a capable unmanned vehicle, I 
think, does fulfill that role of getting numbers in a 
relatively constrained area.
    So we should be looking at sort of a high-low mix of 
capable submarines that can project a threat anywhere we want 
in a short period of time with the ability to deploy from 
submarines or other platforms--airplanes and surface ships--
vehicles that can fulfill that mission that others use their 
diesel submarines for.
    Mr. Wittman. As we look at the innovation and creation that 
takes place--and I agree with both of all of you, it takes 
place at a breakneck pace, and the current system of 
acquisition--and we talked about this earlier today--isn't 
well-suited to get technology to the warfighter quickly.
    Give us some of your perspectives--and you shed a little 
bit of light on that in your testimony, but give us your 
perspectives on what we could do to really enhance that. You 
know, it is great to have a fund, but there is always this 
accountability side about what are you doing, who is going to 
oversee that, and those sorts of things.
    But give us your thoughts about, first of all, how would 
you do that internally? How would you encourage the private 
sector to take that innovation, to develop it, to make it 
available to DOD? And if it is applicable, we can put it to 
use. If not, then there should be some ownership, I am sure, by 
the private sector.
    But, anyway, give us your perspective on how we can make 
that happen.
    Admiral Connor. The ability of the private sector to invest 
and to retain their intellectual property and profit from it 
when they succeed would be a huge incentive to bringing many 
companies that are not traditionally pursuing defense work into 
that arena. And there are some very innovative people who would 
be happy to spend their own money for a chance to compete. So 
that is one point.
    The other area is probably more on the side of the 
Department than the Congress, but that is, when programs are 
defined, I think we have had a tendency to define them too 
narrowly. And sometimes that works in the favor of preservation 
of the program in the form it was conceived. But to the extent 
to which we could expand the definition of a program such that 
when good ideas happen that meet the intent of the program they 
can be incorporated.
    If you want to see a good example of that, you could look 
at the Advanced Processor Build/Technological Insertion program 
we use on submarines, which--basically, we assume that the 
hardware becomes obsolete every 5 to 6 years and the software 
becomes out of date every 2 [years], so we plan for those 
changes. We could do similar things with hardware.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. And, Admiral, just to clarify your response to 
Mr. Wittman, as I understand, you are saying if you had to 
spend defense dollars, you would rather have a limited number 
of very high-end platforms supplemented by a large number of 
more inexpensive, perhaps unmanned platforms, rather than 
putting it all in multiple midrange submarines. Is that a fair 
representation?
    Admiral Connor. That is very accurate. I might say massive 
numbers of small platform.
    Mr. Forbes. Right. That is great.
    The gentlelady from Florida, Ms. Graham, is recognized for 
5 minutes.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you, Admiral, Mr. Clark. Appreciate you all being 
here.
    I represent north Florida, where the Naval Support Activity 
Center in Panama City is located. Much of what we are 
discussing here today is being developed and tested there. As a 
matter of fact, there are commercial entities that are on the 
cutting edge of innovation.
    I am curious about what you all are seeing in terms of our 
adversaries across the world and where they are in terms of 
developing unmanned undersea technology. Because, often, the 
challenges that we face are what drive development and drive 
the desire to be competitive in this area.
    So, if you could speak to that, I would appreciate it.
    Admiral Connor. The cutting edge of unmanned undersea today 
exists probably in the academic world and in the oil and gas 
exploration world. And they are developing a lot of technology 
very rapidly.
    From what I have seen--and I am now out of the Navy and no 
longer have a clearance, but it hasn't been that long--our 
adversaries are not ahead of us in unmanned vehicles, 
particularly in the autonomy area. I think we have--the 
robotics center of excellence is in this country, and the 
marine robotics center of excellence is in this country. And 
the folks in your district, in Panama City, have leveraged this 
very highly.
    The MK 18 Mod 1 unmanned vehicle, which is based on a REMUS 
[Remote Environmental Monitoring Units] vehicle which was 
invented for academic research at Woods Hole by some people 
from MIT [Massachusetts Institute of Technology], is a classic 
example of how smart people inside the military leverage 
commercial technology for a very good purpose. In that case, it 
was mine hunting.
    Mr. Clark. I think I agree with Admiral Connor on that, 
that the most capable systems are being developed by American 
academia, often in consortiums with the U.S. Government.
    You see a lot of efforts going on, though, in other 
countries just to put more and more stuff out there. So the 
Chinese have a large number of UUVs that they have been 
developing. The Russians have had a longstanding program that 
uses unmanned vehicles, and mostly remotely operated vehicles, 
to go do undersea surveillance or to do work on cables, et 
cetera. So those programs have been, you know, longstanding 
efforts by those countries. But they aren't as advanced as the 
U.S. technologically, but they may try to make up for that in 
terms of just mass, by putting more effort into it.
    The other area where I see, when you look at the technical 
journals, foreign countries, you know, potentially gaining a 
level playing field is when it comes to the physics and some of 
the computer processing power that is available. So how you 
improve your anti-submarine warfare capabilities involves how 
do you use the physics of the undersea. Well, that technology 
is obviously well understood to a lot of people. And so it 
could be something that academically other countries will 
leverage and take advantage of the fact that computer 
processing power has now grown to the point where you can do 
things today in other countries using their technology that you 
would only be able to do in the United States in the past.
    Ms. Graham. Thank you for that.
    As I have spent quite a bit of time at the Naval Support 
Activity Center in Panama City and I have seen all the 
incredible things that they are doing--and the private sector. 
It is not just by coincidence that there is a large growth of 
companies that are developing undersea technology there, so 
that they can work together with the Navy. And I think that is 
an indication of the cooperation between the private and public 
that we should be encouraging. I am very proud to represent 
both.
    So thank you for that, and I appreciate your answers to the 
questions.
    Mr. Chairman, I yield back.
    Mr. Forbes. Mr. Conaway is recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here.
    As the Navy considers or looks to the next generation of 
attack submarines and the capabilities or attributes that will 
be the key to that, can you talk to me about, is that all 
manned, or is there a blend between the manned and unmanned 
platforms that would be appropriate? And what other key 
attributes should the Navy look at?
    Admiral Connor. And so, as we look forward, we are looking 
at manned and unmanned vehicles that go undersea. We tend to 
call the ones with the people in them ``submarines,'' and we 
tend to call the unmanned things something else. But, clearly--
I think Mr. Clark articulated it very well--there is going to 
be a synergy in the future between things that are manned and 
are unmanned.
    He referenced the ability of the submarine to be the node 
for a number of other vehicles undersea. I would add that, in 
many cases, the submarine might simply be the customer for a 
number of unmanned devices that are informing them about the 
environment, whether they are controlled from a submarine or 
not. They may very well be controlled from shore or from a 
carrier strike group or an aircraft.
    We should get to the point where it doesn't matter because 
we have been able to network them, and whoever has the best 
vantage point----
    Mr. Conaway. Yeah, I have got that part, but what about 
using them as attack vehicles, armed and dangerous?
    Admiral Connor. Ah, I see your question. I think the 
submarine will be the centerpiece of the things that apply 
lethal force in the undersea. I think we have some not just 
conceptual work but policy work to do before we have unmanned 
vehicles that are delivering.
    Mr. Conaway. The Air Force had that same struggle between 
air-breathers and others, and today we wouldn't think about not 
having armed, unmanned--or remotely piloted, excuse me. They 
are all piloted.
    But is there a lesson for the Navy there? Would they get to 
an answer quicker?
    Admiral Connor. There are some parallels in that area. The 
area that is not a parallel is that, when you have an unmanned 
air vehicle, you have constant communications. You usually have 
a video feed. There is a person actually in the loop all the 
time. That degree of precision control is often not available 
for something operating undersea, and you have to rely on the 
inherent autonomy of a computer. And the policy issue is, at 
what point will we let that autonomous computer make a decision 
to apply lethal force?
    Mr. Clark. Sir, I would say that the major limitation we 
are going to find pretty soon in autonomy is not so much how 
smart the computer is on the vehicle but its limited ability to 
get situational awareness of what is going on around it. So its 
sensors are going to be imperfect, and so what will happen is--
--
    Mr. Conaway. But wouldn't they have the same kind of 
ability to figure on what is going on around them that the 
submarine does?
    Mr. Clark. Exactly.
    Mr. Conaway. Nobody looks outside the portholes in the sub.
    Mr. Clark. Right. No, but what happens is, on the 
submarine, you have a human who can be accountable for making a 
decision with uncertain data. So the submarine commander every 
day makes decisions with a lack of certainty with regard to 
what is going on around him, and he is accountable for the 
results of that action. The autonomous vehicle can't be 
accountable for the actions that it takes in the face of 
uncertain data.
    But what we could see is a situation where unmanned 
vehicles----
    Mr. Conaway. But we don't lose unmanned aerial vehicles 
that don't have a human trigger-puller.
    Mr. Clark. Right. And you could do the same thing undersea.
    Mr. Conaway [continuing]. Have a trigger-puller either, 
would you?
    Mr. Clark. Yes, sir. So you could have an undersea system 
where the unmanned system is in relatively close contact with a 
submarine, not necessarily continuous coms [communications] but 
would, you know, be able to relay back to the submarine a 
situation that it sees, and then the submarine commander or the 
person on board would make a decision on whether to apply 
lethal force and be accountable for that decision. But it would 
require some degree of coordination between the unmanned system 
and the submarine.
    Mr. Conaway. Yeah.
    And, again, the unmanned systems can be deployed off a 
submarine or a carrier. How does the Navy not silo up this 
decision process and take full advantage of these systems--you 
know, the surface guys between carriers and LCSs [Littoral 
Combat Ships] and subsurface and all those silo things? How 
does it avoid not using something to the fullest extent because 
it was somebody else's idea and we don't like submariners, we 
like surface guys better?
    Admiral Connor. Congressman, I think we are past that in 
many areas. Having managed the ASW fight, which is a team 
effort between aircraft, surface ships from carrier strike 
groups, and submarines and fixed systems, we have some fairly 
highly evolved ways that we can work closely together without 
fratricide. And there is a fair amount of humility in who does 
the final act, so to speak.
    In fact, this world that we are talking about in undersea 
that is heavily based on netted systems, in the vast majority 
of cases, the preferred community to conduct the final attack 
would probably be the aviators. Because, as we have a wide 
range of sensors, when we get a contact and we want to quickly 
turn that contact into disabling the enemy, the platform of 
choice would probably be a P-8 aircraft.
    Mr. Conaway. Thank you.
    I yield back.
    Mr. Forbes. Mr. Johnson is recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony today. And thank 
you for your service to the Nation, as well.
    Admiral Connor, how does the Navy intend to incorporate the 
proliferation of underwater vehicles into existing submarine 
platforms? And what modifications should the Navy incorporate 
into future requirements to ensure that they are able to accept 
a wider range of emerging technologies?
    Admiral Connor. Congressman, that gets fairly close to the 
discussion we had with Congressman Courtney in that we have to 
have the payload capacity and the versatile payload capacity to 
handle these vehicles.
    This year, for the first time in an operational setting, we 
deployed and retrieved a series of unmanned vehicles doing 
missions in a place and in a manner that we could not have done 
with a submarine. However, we did that with a submarine that 
was equipped with a device we call a dry-deck shelter, which is 
designed for the deployment and retrieval of Navy SEALs [Sea, 
Air, Land forces]. And that is a large ocean interface that we 
carry on the back of the submarines.
    As we look to the future, we need to design our submarines 
such that the vast majority, if not all of them, will have that 
same ability to deploy and retrieve, and, preferably, we don't 
have to add some special component that impacts the performance 
of the submarine in other ways.
    So we are learning lessons as we go along. We have made 
some steps, but those steps are telling us the types of things 
we need to have so that we can deploy and retrieve in the 
future.
    Mr. Johnson. Thank you.
    Mr. Clark, do you have anything you would like to add?
    Mr. Clark. Yes, sir.
    So the system Admiral Connor is talking about is the 
Universal Launch and Recovery Module, ULRM. And that system 
would be really important to be able to launch and recover 
unmanned vehicles from a submarine more easily without having 
to have divers and everybody involved.
    The other thing we need to do with our submarines, though, 
is look at how they communicate with the outside world and with 
the unmanned vehicles they are going to be interfacing with.
    Today, you can generally use three ways to communicate from 
a submarine. One would be the radio frequency spectrum, so that 
kind of requires that you be above the water in order to use 
the radio.
    The second way is light, so you can use lasers to 
communicate at relatively short distances. So we would need to 
equip submarines with ways of using lasers or LEDs [light-
emitting diodes] to communicate with unmanned vehicles that are 
relatively close to them. And that is a pretty high bandwidth 
communication link, but it is very short-range.
    And then acoustic communications, which can actually travel 
for a very long distance, so hundreds of kilometers, 
potentially, if you go to low frequencies. Those communications 
can travel over a very long distance. So we would need to equip 
submarines with the ability to do those kinds of long-range 
acoustic communications so that they can form the centerpiece 
of this battle network in the future.
    Mr. Johnson. Thank you.
    What barriers to innovation must the Navy address to more 
rapidly field emerging technologies? For the both of you.
    Admiral Connor. Congressman, I think the two barriers are: 
funding; and the other one is the willingness to experiment and 
tolerate failure in addition to success, with the goal of 
moving forward faster overall.
    Mr. Clark. I think we need to look at how we establish 
requirements for new programs.
    Today, if you are going to start a new acquisition program, 
you go and develop through a series of years of analysis a set 
of requirements for that program. That might be acceptable when 
you are talking about a manned platform that is going to have 
people on it and is going to be in the force for decades after 
its introduction.
    But for a payload like an unmanned vehicle or a weapon, 
that may not be the case. There may be a very quick technology 
refresh cycle on that. So we may be able to have requirements 
that are less stringent or less comprehensively developed and 
could be developed in a shorter time. And that would increase 
the speed with which we could bring these new systems on board.
    The other thing I would note is the testing process that we 
have today can be very cumbersome. A great example of that is 
the mine warfare mission package for the LCS, which uses a lot 
of unmanned systems to go look for mines and blow them up. The 
one problem they are having today is they are finding that some 
of these unmanned vehicles are not as good as other unmanned 
vehicles they would prefer to have in the package, but because 
the test plan doesn't address the fact that you can switch out 
these unmanned vehicles as you find some that work better than 
others, they are forced to stick with their original plan and 
their original, you know, poor-performing vehicle because the 
test plan doesn't accommodate any changes.
    So having more flexibility with regard to testing might be 
a very important way to encourage, you know, the introduction 
of new systems that have shown themselves to be more capable 
than the ones we are currently pursuing.
    Mr. Johnson. Thank you.
    And, with that, I will yield back.
    Mr. Forbes. The gentlelady from Missouri, Mrs. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen. This is very interesting. And I had 
to miss the opening statements, so I apologize if I ask a 
question you have already covered here.
    But, just to be clear, are there any of these, as you call 
them, unmanned underwater vehicles in operation now, or is this 
just totally conceptual at this point?
    Admiral Connor. There are absolutely vehicles operational 
now.
    Mrs. Hartzler. So how many do we have in our fleet now?
    Admiral Connor. I don't know the exact number. I would 
estimate that it is on the order of a couple of hundred if you 
include in that definition these series of Wave Gliders that we 
use around the world for oceanographic measurements which we 
incorporate into how we operate our sonar systems. That is one 
category.
    There are probably upwards of 50 vehicles in use in the 
mine-countermeasures mission. And that is a mission that has 
probably been the most proactive in experimenting, and that was 
because of the urgent need that was developed by the threat of 
mines in the Strait of Hormuz, which led to an intense program 
with funding and led to some pretty remarkable results.
    Oh, by the way, that program leveraged vehicles that had 
been put in service by the oceanographic community for some of 
their needs. So you can see how, when you set the right 
environment, one organization can quickly build on another 
organization's success. It is a very collaborative effort.
    And then I did mention earlier that we did our first 
operational deployment and retrieval on a submarine-like 
mission this year. So it is expanding pretty rapidly.
    Mrs. Hartzler. So there is only one that is actually being 
launched from the submarine at this point, and that is the one 
that was used by the Navy SEALs?
    Admiral Connor. No. There is one variant that is currently 
deployed by submarines. It is deployed and retrieved by the 
submarine development squadron that embarks on the submarine.
    Mrs. Hartzler. Okay. Very good.
    And I just want to know a little bit more how it works. I 
want to build on Representative Conaway's point. I have the 
Predator drone unit in my district, and they do not like to be 
referred to as unmanned aerial vehicles, which I certainly 
understand. They are remotely piloted.
    So, in this case, are they all remotely controlled? Or you 
indicated, Mr. Clark, that there may be some option for just a 
software package where they operate free of human direction. Is 
that correct?
    Mr. Clark. That is correct. Yes, ma'am. So, today, most of 
our undersea, underwater, or other unmanned underwater vehicles 
are automated----
    Mrs. Hartzler. They really are.
    Mr. Clark [continuing]. Or autonomous. Right. They do not 
have a remote pilot. So a remote pilot diversion would be a 
remotely operated vehicle [ROV], which is what you might use in 
the oil and gas industry to go down and do operations at a 
wellhead. So, for example, the Deepwater Horizon oil spill that 
we had in the Gulf, we were using ROVs to do a lot of the 
repair work there to try to close off the spill.
    But in the Navy, we use a lot of unmanned undersea vehicles 
that are truly unmanned, and they use onboard automation in 
order to go out and conduct their mission. We use them for 
survey work. For example, the MK 18 Mod 2 was used to look for 
the Malaysian airliner that went down in the southern Indian 
Ocean last year.
    So they go off, and they can do these survey missions on 
their own and come back, and the data can be retrieved from 
them. What we are talking about is expanding the use of those 
systems now to do other missions than simply surveying, you 
know, to look at them for weapons, for example, because they 
can go out and actually attack something if it has been 
defined, especially like a fixed target that you could define 
well in advance.
    You could also use them to go do ASW operations by dragging 
a rig behind them and then being able to search for a contact, 
that kind of stuff.
    So we are looking to expand their use into a lot more 
areas. But they aren't remotely operated; they are truly 
unmanned.
    Mrs. Hartzler. Now, last question, you talked about the 
three ways it could be run--through radar, laser, acoustic. I 
was just wondering, if they are acoustic, does that make them 
vulnerable to intentional detection?
    Mr. Clark. Right. It does. It depends on how you do it. So 
there are ways, just like radio communications, to encrypt 
those communications underwater. There are also ways to make 
them less detectable by making the beam very focused so it is 
hard to intercept it from outside a very narrow beam width. And 
you can also make it so that the sound is not too far above the 
noise level of the overall ocean, so you would have a difficult 
time finding it. You know, if you were trying to listen for the 
communication, it would just barely rise above the background 
noise.
    Mrs. Hartzler. Very interesting. Thank you.
    I yield back.
    Mr. Forbes. If the gentlelady would yield, one of the 
things that might be interesting for any of our members to do 
is get a classified briefing on some of the unmanned operations 
that are going out there. I think that would be insightful too.
    With that, the gentlelady from Hawaii, Ms. Gabbard, is 
recognized for 5 minutes.
    Ms. Gabbard. Thank you. Thanks, Mr. Chairman.
    Thank you, gentlemen, for being here.
    And, on that note, I would like to encourage my colleagues 
to come out and visit the Barking Sands facility in my 
district, where a lot of this innovative training is taking 
place in 900 square nautical miles, water depths ranging from 
6,000 to 15,000 feet, with a full spectrum of range support and 
data display, target weapon launching, recovery, et cetera, et 
cetera. It is something that we are proud of, and it is a one-
of-a-kind asset that we have here for our Navy to use.
    Mr. Clark, I wonder if you could speak a little bit more to 
something that you mentioned earlier with regards to 
transitioning R&D [research and development] technologies from 
DARPA into acquisition programs. And you mentioned about the 
need to move away from transitioning directly to warfighters to 
focusing more for DARPA on kind of these bigger, longer-term 
innovative ideas.
    If you could talk a little bit about the balance of that, 
given some of the present-day challenges we are facing as well 
as the projected challenges and increased capabilities we are 
seeing in other parts of the world.
    Mr. Clark. Yes, ma'am. So our service organizations that do 
research and development--for example, the Office of Naval 
Research--are designed to be pursuing near-term advancements to 
current capabilities. So they would be the organizations that 
are looking to take existing systems that we have today and 
adding new capabilities to them through their research projects 
or introducing some new systems that sort of build upon what 
the current system of systems that we may have in the DOD does.
    So that is more of the evolutionary change. It is going to 
come from those organizations. What we need DARPA and 
organizations like that--and this is also where the, you know, 
kind of, outside-DOD innovation industry could be looking, as 
well--is, how are we getting ahead to deal with the next set of 
challenges?
    So the near-term challenges are: We have new competitors 
that are fielding submarines. We have to be able to, you know, 
detect and potentially engage them. And we have to maintain our 
ability to gain access undersea in places where people don't 
want us to go. I mean, those are things we have talked about 
with unmanned vehicles, et cetera.
    But we need to start looking down the road at, what is the 
next generation of anti-submarine warfare detection 
technologies? If it is not going to be passive acoustic sonar, 
is it going to be something else? DARPA should be looking at 
what is that next game-changing technology.
    If we are going to go to vehicles that can do on their own 
everything that a base submarine would do, then how do we build 
that autonomy and build that sensor capability--because they go 
together--into the next generation of vehicles to enable these 
totally different operating concepts that we might use, where 
an unmanned vehicle goes and does an operation in place of a 
submarine?
    Those are the things that a DARPA-type organization should 
be looking at. So they are fairly disruptive. They are pretty 
revolutionary. They are going to involve some risk. But if 
nobody is looking at that, then we won't be able to gain that 
next advantage.
    So a good example would be things like stealth. You know, 
we wouldn't have had stealth if DARPA hadn't started pursuing 
it 20 years before we ever fielded the first stealth airplane.
    Ms. Gabbard. And, on that note, Admiral, at the end of your 
written testimony, you talked about innovation and 
incentivizing that innovation, which goes directly along with 
what you are talking about.
    Can you give some examples of how we can best incentivize 
private investment towards this development and open up the 
doors more for those who are doing the research and finding 
solutions for this in the private sector and eliminating some 
of those obstacles to the DOD being able to take action?
    Admiral Connor. Yes, ma'am. I would be happy to do that.
    I will give you an example. In the field of autonomy, for 
example, you know, autonomy engines, which are really software 
algorithms that help machines make decisions independent of 
operator, it is a very quickly moving field. Most of the 
development that is taking place there is taking place in the 
private sector. Much of what they are developing is directly 
applicable to the type of work that we do in national defense.
    If we want to be able to leverage the best types of 
algorithms that come into our programs, we will need to provide 
a way, for example, that the rights to that intellectual 
property when we incorporate it still provide a reward to the 
person who designed it in a way that makes them want to keep 
working with us and that makes their competitors want to design 
something better that we want to buy.
    And it is an incredibly fast-moving field. And that is just 
one example. There are other parallels in propulsion, that the 
battery industry is moving forward at a very rapid pace, and 
whoever has the best battery, which has a big impact on the 
system, should be rewarded for that.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    So, a little over a year ago, I was out fishing about 20 
miles off the coast of Neah Bay with former Congressman Norm 
Dicks, and there were two things I discovered that weekend: 
One, I am a better fisherman than Norm Dicks. And that is for 
the record. That is for the record. It is a pretty high bar. 
Second, there is a lot of water out there, a lot of water out 
there. And so that physical limit, if you will, applies to us 
as much as it applies to peer competitors and near-peer 
competitors, to cover that water.
    So, Admiral Connor or Mr. Clark, can you talk a little bit 
more about the sheer numbers? If you went to ROVs or 
autonomous, to cover the kind of water that we would need to 
cover, you would need a lot, unless you made a conscious 
decision to, you know, limit the space that you are going to 
cover at any one time. And so how do you address it? It is sort 
of the--it is not the tyranny of distance; it is the tyranny of 
volume.
    Admiral Connor. Congressman, I would be happy to answer 
that.
    This is a case where you don't have to know everything 
everywhere, but there are some places where you would like to 
have very good knowledge. So if you take some of the more 
strategic chokepoints in the world, the approaches to them, you 
would want to gain near-perfect knowledge in those areas.
    When we have critical things we want to protect, like some 
of the undersea infrastructure that we mentioned earlier that 
is so critical to our economy, there may be places where you 
decide you want to have a volume of system in that relatively 
small area around that infrastructure where you would have 
sufficient vehicles for perfect knowledge. And then you would 
need, obviously, a different approach to, you know, open ocean.
    The other area where we want to have fairly perfect 
knowledge is the area around things like our carrier strike 
groups. And all of the examples that I mentioned are doable if 
we take that system-of-systems approach, recognizing that some 
systems are suited to, say, a deepwater environment and others 
are more suitable for a chokepoint environment.
    And the task that the Navy has to come up with is how to 
combine varying systems in a way that they present an output 
that is easy to understand by the operators so that they don't 
have to worry so much about the physics of shallow versus deep 
water; they just have to know where the contact is. And that is 
doable if we just apply some operational planning and decide 
what areas are important.
    Mr. Larsen. Uh-huh.
    Mr. Clark. So one thing I would add to that--I think that 
is exactly right when it comes to areas that we are trying to 
defend. I think, then, looking for the adversary's problem, we 
want to force the same problem onto him. So we don't need to 
have a large number of underseas systems in his near-abroad to 
force him now into a situation where he is expending a lot of 
effort to go find where we are. So the combination of 
submarines with unmanned systems would enable us to be able to 
distribute our force over enough area that it creates fits for 
him in terms of his anti-submarine warfare efforts.
    The other thing it points out is the urgent need for the 
DOD to develop counter-UUV technologies. Because finding an 
unmanned underwater vehicle is very hard because they are 
small, they are usually made of plastic, they don't have a 
great sonar return. So developing ways to counter the efforts 
of others to bring UUVs against us is very important, because 
that could be one of the asymmetric capabilities of the future, 
like we saw with the IEDs [improvised explosive devices] and 
now we are seeing UAVs. UUVs may be another capability somebody 
could use against us asymmetrically.
    Mr. Larsen. Yeah.
    I want to follow up on something Mr. Wittman and Ms. 
Gabbard discussed, but I am still not hearing the specifics, 
and this is how to get private sector to participate more in 
this particular area, especially as it relates to IP 
[intellectual property].
    I forget which one of you mentioned it in your testimony 
more specifically, but there is a problem with who gets to keep 
that intellectual property and who has to sign it over. It is 
usually the Navy gets to keep it, and the private sector has to 
sign it over. That is not going to work long term if we want 
the private sector to participate.
    Can you talk a little bit more about how you could make 
that work?
    Admiral Connor. One way to make that work is to start 
buying stuff. I know it sounds pretty simple, but when defense 
contractors would come to me, they would look at our budget and 
they would look at the size of the budget and they would look 
at the probability that they could gain that business, and then 
they would make a decision as to how to invest their own money.
    And so, if we recognize that this is a growing field and we 
make a conscious attempt to lead-turn this dynamic field by 
investing in the technology that is coming to bear in a short 
period of time, that will snowball and others will join the 
business, and our capacity will get greater, but also the 
quality of the systems will get greater because American 
entrepreneurs will make an attempt to gain our business.
    Mr. Clark. The other thing I would say is we could look at 
leasing more systems. As unmanned underwater vehicles become 
more common, both commercially and in the military, we could 
lease more of these systems.
    And that is a similar model to what we have used the UAVs, 
so the ScanEagle and some of the other UAVs that we have used 
off Navy ships. In many cases, most of them we have today have 
been leased, and it is contractor-owned/contractor-operated, 
and we just rent the thing.
    So those are options that are going to present themselves 
to us as unmanned underwater vehicles become more common.
    Mr. Larsen. Thank you.
    Mr. Forbes. Gentlemen, thank you very much.
    As we mentioned at the outset, we always like to give our 
witnesses a few moments. If there is anything that you didn't 
get a chance to elaborate on as much as you thought you should 
have or if there were any questions that you would like to 
clarify an answer on, this would be the time to do that.
    And, Admiral, why don't we once again start with you, and 
we will let Mr. Clark have the final word.
    Admiral Connor. Chairman Forbes, thank you again for 
letting us talk to you today.
    The points that I would like to just add that I didn't 
mention earlier is that one of the areas we didn't talk about 
very much was the risk that adversary systems might present to 
our infrastructure and the urgency with which we should seek to 
come up with efficient ways to defend our infrastructure--oil 
and gas, coms, power, et cetera. And that should be a 
consideration. And that mission will probably fall to the Navy 
if it is greater than 12 miles from land.
    And then, lastly, we talked about developments in laser 
coms and autonomy and so forth, and I just want to thank you 
all, because we had made some great strides in very recent time 
simply with the funding that was allocated to those efforts via 
the omnibus reprogramming earlier this year. And all the 
committees that made that happen had a direct impact in pushing 
forward a dynamic field in a very big way. I was at Woods Hole 
yesterday, and they were showing me all the great work that 
they did with the money you provided only a few months ago.
    Thank you.
    Mr. Forbes. Good. Thank you.
    Mr. Clark.
    Mr. Clark. Thank you, sir. Thank you again for having us 
here today. It has been a terrific experience and honor.
    I would have two things that I wanted to add. We talked a 
little bit earlier about diesel submarines. Congressman Wittman 
brought them up. One thing I would say with regard to diesel 
submarines, our experience with World War II diesel submarine 
warfare, which is the largest scale of anti-submarine warfare 
competition that we have had, was that diesel submarines could 
be rendered ineffective by mounting a pretty aggressive anti-
submarine warfare campaign even if you didn't sink any 
submarines.
    The Germans, the Italians, even the Americans, when faced 
with somebody that was aggressively going after them with 
active sonar and even ineffective attacks, were successful at 
keeping the diesel submarines from being able to operate and do 
counter-shipping attacks.
    So diesel submarines, while they are cheaper, probably, and 
maybe could be bought in larger numbers, also suffer from some 
disadvantages that would make them easier to prevent from being 
effective because they are slow and they lack the ability to 
endure underwater for a very long time.
    The second point I would bring up is on this point of 
innovation and organization, is that the Navy's recent effort 
to align all of its unmanned systems under a single directorate 
I think offers some opportunities to improve the speed with 
which and the effectiveness with which it can transition new 
capabilities. So I would applaud that.
    I think we have to take a similar approach in the 
acquisition world, to look for ways to align under one 
organization these smaller programs that lead to technological 
advancements. Because today they are often under a larger 
organization that has much bigger responsibilities for large 
acquisition programs that are going to consume all of their 
time and consume most of their money.
    So they don't have the brainpower and the bandwidth to be 
able to look closely at the technology efforts and see which 
ones are offering the most promise and foster those and then, 
you know, take the other ones and take them off the plate and 
cancel them. And so one of the reasons we see today that we 
have a lot of programs bubbling up but very few get turned off 
is because the people that manage those programs don't have the 
time to devote to be able to determine which ones to keep and 
which ones to get rid of.
    So I think that is a good effort on the requirements side 
that the OPNAV [Office of the Chief of Naval Operations] staff 
is taking. We need to follow suit within our acquisition 
organizations in the Navy to be able to carry that through so 
that unmanned systems and the innovative technologies they 
incorporate can be, you know, taken forward in a strategic way 
as opposed to simply in a bottoms-up, water-all-the-flowers 
approach like we have now.
    Mr. Forbes. Could you just take a couple seconds and 
clarify on the diesel subs, since it has been raised? The 
admiral mentioned they could go about 100 miles and then they 
had to come up to the surface. Can you explain why, so we have 
that on the record?
    Mr. Clark. Right. So a diesel sub is going to be able to 
operate on its battery and use battery to drive an electric 
motor to go around underwater, but that battery will eventually 
need to be recharged. And so the diesel engine is then operated 
to recharge the battery, which means you have to come up and 
put the snorkel up in order to get air to run the diesel.
    Even air-independent propulsion submarines, which use an 
engine that uses a chemical oxidant instead of air to be able 
to run a diesel engine and recharge the battery, have a limited 
amount of that chemical oxidant on board. So, after a couple of 
weeks, they have to go and replace their chemical oxidant, so 
they are pretty limited in their endurance, as well.
    So non-nuclear submarines offer some opportunities, but 
they have significant limitations when it comes to how long 
they can stay underwater.
    Mr. Forbes. Admiral.
    Admiral Connor. If I could just clarify, if I implied that 
a diesel submarine could only go 100 miles without a recharge, 
that is not what I meant to convey. What I meant is----
    Mr. Forbes. Maybe I misunderstood. You said about 100 miles 
in a day, I think.
    Admiral Connor. Right. And then they have to recharge, 
depending on how their technology is, every 2 to 5 days. But 
when you work against them, on average, you know they are not 
going to make much more than that, or if they are, they are 
going to make noise.
    Mr. Forbes. Okay.
    Well, thank you both for being with us.
    And if there are no other questions, then we are adjourned.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            October 27, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 27, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 27, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I noted with interest the testimony regarding the 
need to develop a common battlespace picture of the undersea, 
regardless of the platforms and individual sensor inputs. What would 
this look like in your mind, what are the linchpin technologies and 
concepts that would need to be developed in order to enable this system 
of systems, and are we currently designing sensors and systems with the 
ability to communicate in such a way?
    Admiral Connor. In my mind, the solution would have a background 
that looked like ``Google Earth'' and then have multiple layers of data 
that could be layered on top of that background. Each layer would 
represent a different source of data and each layer could be at a 
different classification level, with the classification varying as a 
function of the sensitivity of the data source. Users would be 
authorized to see all of the data that they are cleared for, subject 
also to the classification level of the room in which is was displayed.
    The technologies exist today and consist of tagging information 
from various sources with a geographic position, a time stamp, a source 
identifier, and other metadata as needed. There is no particular sensor 
technology required here. A good battle space picture will be able to 
accept data from a variety of sources.
    It should be noted that systems with the proper characteristics are 
being introduced at some of the intelligence agencies. My point for DOD 
is that these technologies need to be standardized across the 
Department of Defense and used in the operations centers where tactical 
and operational level decisions are made. Unfortunately, the command 
centers on our ships and in our fleet headquarters do not effectively 
leverage this technology today. As a result, the speed and quality of 
operational decisions will continue to suffer until this is overcome.
    To get a sense of how the technology exists in the private sector 
today, just look at a Google map and select the layers of information 
that you wish to display such as weather, traffic, restaurant locations 
etc. We should have the ability to do something like this with a chart 
of the ocean, then layer AIS traffic, weather, satellite derived 
intelligence, reports from our ships, reports from fixed sensors, and 
so forth. That does not exist today in a simple, standard format that 
could be shared across the Joint Force.
    Mr. Langevin. I appreciated your testimony about the need for 
nonspecific innovation funding and broadly defined programs. While I 
agree about the need for increased agility and freedom to fail on 
innovative ideas, this concept always comes into significant tension 
with the need for Congressional oversight and accountability. Can you 
provide examples of programs besides APB/TI that have been defined 
properly, in your view, and ones that have not? Are there innovation 
funds elsewhere in the budget that you would use as a model?
    Admiral Connor. There are specific innovation funds that are 
controlled by the Department of Defense Strategic Capabilities Office. 
This represents a good start. As we also discussed in testimony, there 
are Speed to Fleet funds controlled by the Office of Naval Research. 
However, as I noted in testimony, the time frame for deciding how to 
allocate Speed to Fleet funds takes about a year, defeating the intent 
of the program.
    In addition to the APB/TI process used in the submarine combat 
system, there is more a more recent program in the Aegis combat system 
called the Advanced Capabilities Build (ACB) program that has migrated 
that system much closer to an easy to modernize, Commercial Off the 
Shelf (COTS) strategy that should be able to handle change more easily 
in the future than in the past.
    An example of a program that has struggled to incorporate 
technology is the LCS mine countermeasures mission package. This 
package is derived from a program that was originally conceived to 
deploy from an aircraft carrier. Is is based on a diesel powered Remote 
Minehunting System (RMS) that tows an acoustic sensor (AQS-20) I don't 
have access to the entire history of the program, but believe it to be 
about of 20 years old. It has yet to deliver a meaningful capability. 
In the interim, the field of autonomous undersea vehicles (AUV) has 
emerged and offered solutions that have been deployed as prototypes in 
the Arabian Gulf. The AUV-based programs will likely overtake the LCS 
mine countermeasures program of record. The Navy struggles as an 
institution to make a decision such as abandoning a non-performing 
program with significant sunk costs in favor of a more elegant solution 
that uses more modern technology. Part of that difficulty involves the 
need to go to Congress and report ``failure.'' My point here is that 
recognizing that a solution is obsolete and cutting (or restructuring) 
the underlying program in favor of better technology should not be 
considered failure. It should be considered an appropriate business 
decision.
    I would like address your accountability concerns. I agree that 
there is a tension between freedom to innovate and proper stewardship 
of taxpayer dollars. However, our current system focuses the 
accountability at the level of the program manager and below. Program 
managers are incentivized by initiatives such as Nunn-McCurdy to set 
modest goals and then meet those goals as inexpensively as possible. As 
a result, a program with a long lead time will often reject technology 
that becomes available after those goals were set due to either the 
administrative obstacles or financial hurdles, even if that technology 
could make that system much more effective. This can result in programs 
that meet program goals, but do not deliver capability that is still 
relevant at the time of delivery.
    While program managers are accountable to meet the goals of their 
program, there is no senior officer or senior civilian accountability 
for ensuring that the program goals actually provide the capabilities 
we will need to prevail in time of war. For example, there is no 
bureaucratic tension or accountability over the fact that potential 
adversaries have as anti-ship missiles with engagement ranges greater 
than our own. This is a significant problem that will limit the manner 
in which we will be able to deploy our surface ships in time of war.
    Congressional oversight and accountability of senior leaders to 
ensure that they have a viable overall strategy and an agile means of 
delivering the capabilities that enable strategy is an important 
counterweight to oversight at the program level.
    Mr. Langevin. In your opinion, are we investing enough in the 
enabling technologies for next-generations sensors--communications, 
advanced processing, and other sensor-independent areas--as well as the 
potential sensors themselves to position ourselves well on the sensing 
and communications side for the battle network competitions of the 
future? What would your ``next dollar'' go to? And are there 
investments that we are making now that risk being stranded?
    Admiral Connor. In the area of enabling technologies, I think there 
are opportunities to do better. In the near term, I would focus on the 
underlying technologies that would help us get more out of the sensors 
that we have.
    I would focus first on machine learning. We need this technology to 
do more acoustic analysis onboard unmanned systems and even in the 
headquarters where a large number of systems will feed the overall 
picture. Historically, each acoustic sensor system required a person to 
review the live information stream produced by that sensor and make an 
assessment regarding the information presented. This method of analysis 
will not be tenable if we succeed in placing larger numbers of 
inexpensive sensors in the field. There have been previous attempts at 
``automatic target classification'' that have failed in the past. 
However, we now have more elegant methods available in which the 
machine actually learns its environment and recognizes changes with 
little human interaction. Success in this area will make us more 
effective and much more efficient.
    Other focus areas that would help us move forward more effectively 
include covert communications, undersea fiber optic networks, and 
charging stations for unmanned vehicles. These technologies will help 
us share the information that we gather more effectively and keep our 
autonomous sensors on the front line longer.
    Mr. Langevin. Mr. Clark testified to the need to organizationally 
realign the Navy to bring the undersea under a single roof. Do you 
agree with his suggestion? What in your view would be the optimal 
organizational structure for the undersea?
    Admiral Connor. I do not agree with his suggestion. The current 
system in which the service is organized around the major warfare 
communities serves a good purpose. It allows the community leaders to 
focus with an expert staff on acquisition issues, community management, 
and educational issues necessary to the healthy functioning of those 
communities. Also, each warfare community fights as part of a Joint 
Team in strike warfare, surface warfare, undersea warfare and special 
operations. Warriors from each community need to be broad enough to 
work across undersea/surface/strike warfare because all of the warfare 
communities support all of these missions in war time.
    To the extent that some organizational change may be necessary to 
adapt to future security requirements, the recent establishment of N99, 
an OPNAV division to support unmanned systems, is a good step. It 
recognizes that there is a growing unmanned element to each major 
warfare area.
    The Navy needs a mind-set change more than it needs an 
organizational change. The change involves recognition that we are 
already in a world in which military superiority will be determined by 
the speed of innovation. Our military peer competitors are innovating 
at a faster pace than us. We struggle to move forward technologically 
because our budget cycle and acquisition cycles are longer than those 
of our rivals and are a root cause of the declining margin in our 
superiority--including undersea superiority. The navy (and the other 
services) are not pushing hard enough to create an environment in which 
pace of innovation is recognized as a strategic asset.
    Mr. Langevin. I noted with interest the testimony regarding the 
need to develop a common battlespace picture of the undersea, 
regardless of the platforms and individual sensor inputs. What would 
this look like in your mind, what are the linchpin technologies and 
concepts that would need to be developed in order to enable this system 
of systems, and are we currently designing sensors and systems with the 
ability to communicate in such a way?
    Mr. Clark. The undersea common operational picture (COP) will be 
different than the COP that can be created using sensors and networks 
above the water. Sonar and non-acoustic undersea sensors are less 
precise and accurate than radar or electro-optical systems. As a 
result, the undersea COP will often consist of approximate target 
positions and classifications along with an estimate of their accuracy, 
or an ``area of uncertainty.'' And because undersea communications have 
much lower bandwidth than radiofrequency (RF) systems above the water, 
the undersea COP will take longer to develop and update.
    The limitations inherent in establishing an undersea COP, however, 
may not significantly hinder undersea operations. Unmanned undersea 
vehicles (UUV) and submarines travel slower than about 35 knots in all 
conditions, and less than about 15 knots to maintain their acoustic 
stealth. Their positions will not change quickly, and they are unlikely 
to inadvertently move into a higher threat area or risk a collision 
with another vehicle due to an imprecise operational picture.

The key role of undersea networks

    The networks that create an undersea operational picture will be 
different than those above water and are largely limited by physics 
rather than technology. Because RF signals in the frequencies U.S. 
forces most often used for communication travel only a few feet in 
water, undersea communication networks will rely on a combination of 
acoustic, fiber optic, RF, and laser or LED-based communication systems 
to connect commanders ashore with undersea forces inside contested or 
denied areas.
    Fiber optic and RF communication systems will form the ``long-
haul'' portion of the network between main operating bases in the 
United States or overseas and the edge of friendly waters. These 
systems will terminate at gateway buoys or underwater nodes that 
translate RF or fiber optic communications into acoustic or laser/LED 
signals. Fiber optic cable networks on the ocean floor could be 
combined with undersea sonar arrays to enable a single system to act 
both as part of the sensor network and as the communication backbone.
    Physics and the operating environment will dictate whether acoustic 
or laser/LED communications are best used to connect operating undersea 
forces with fiber optic or RF networks that can only reach the edge of 
denied areas. Laser/LED or medium frequency (1,000-10,000 hertz) 
acoustic transmitters can communicate over a distance of a few hundred 
yards with the speed of a slow internet connection. Acoustic 
transducers at low frequencies (less than 1,000 hertz) can reach up to 
about 100 miles away, but with transmission rates of less than 1000 
bits per second, it will take minutes to send each message. As with RF 
communications, the bandwidth of acoustic and light-based undersea 
communications changes with their frequency, whereas the range of 
acoustic communications is changes inversely with their frequency. The 
farther communications need to go, the less data can be sent and a 
message will take longer to send. Long-range communications will be 
relatively slow, and short-range ones will be faster.
    Submarines and unmanned systems operating relatively close to RF or 
fiber gateways can use acoustic and laser/LED communications to connect 
to the network. For undersea forces that are far from fiber optic 
cables and unable to expose themselves to use RF communications, the 
bandwidth and range limitations associated with acoustic and laser/LED 
communications may make relays the most efficient way to connect with 
commanders and support organizations ashore. These relays, such as the 
Navy's Forward Deployed Energy and Communication Outpost (FDECO) 
program, can be deployed on the sea floor, act as energy and 
communication stations that collect messages going to and from UUVs or 
submarines, and communicate with undersea gateways in friendly waters 
using long-range acoustic communications or UUV ``data mules'' that 
physically carry information in onboard computer memory. These stations 
can also recharge UUVs and themselves be recharged by the data mules.
    The key technologies needed to put these undersea networks in place 
are long-range acoustic and short-range laser/LED communication 
systems, deployable and fixed fiber optic cable communication networks, 
processing capabilities, and deployable communication and energy 
station. The Navy is developing these technologies through numerous 
basic science and applied research programs, and most are mature. The 
most significant gap is in communication processing technology; 
undersea communications will operate at widely varying levels of 
bandwidth and latency, and synchronizing inputs and outputs will 
require new signal processing software and hardware.
    Despite its work in technology, the Navy is not aggressively 
pursuing programs that will demonstrate these technologies in 
operationally relevant situations such as the Undersea Constellation 
and FDECO. The Navy should put together a plan for the development of 
its future undersea battle networks and demonstration of these 
capabilities at sea through programs that can be transitioned into the 
DOD acquisition system.

Importance of sensor technology

    Because of the bandwidth and range limitations associated with 
undersea communications, UUVs and unmanned systems will not be remotely 
operated like unmanned air vehicles such as the MQ-1 Predator and MQ-9 
Reaper. They will need to be largely autonomous. Autonomy technology is 
improving quickly, and many new UUVs and other unmanned undersea 
systems are able to select missions from a prioritized list of tasks 
and re-task themselves in response to new information.
    The quality of sensor information and analysis, however, will be 
the most significant constraint on autonomy. The emerging generation of 
UUVs are able to travel safely to a prescribed location, avoid hazards 
such as ships and debris, follow applicable navigation rules and 
regulations, and execute simple tasks such as survey the bottom or 
deploy mines. For these operations UUVs and unmanned systems do not 
need a high level of certainty regarding the position of the UUV or 
system, as well as the location and classification of contacts around 
it.
    Unmanned undersea systems could also be used for responsive 
operations such as attacking enemy ships or submarines. These 
operations will require a high level of certainty regarding the 
position and classification of a contact the unmanned system will 
attack, because it will not be controlled by a human operator who can 
be accountable for taking the risk of attacking a contact based on 
uncertain sensor information. As a result, the unmanned system will 
often not engage, missing opportunities to achieve the undersea force's 
military objectives. Without better sensors and target recognition 
capabilities, UUVs will remain constrained to missions where the target 
or location can be very precisely and accurately determined.
    The Navy is developing new undersea sensor technologies that will 
enable U.S. forces to detect enemy submarines at longer ranges and 
classify them more accurately. This work should continue and emphasize 
the ability of unmanned systems, including UUVs, to characterize the 
threat environment and act autonomously in response. Some programs, 
such as the Persistent Littoral Undersea Surveillance (PLUS) system, 
have been effective at enabling an unmanned system to detect and 
roughly classify undersea contacts. More demonstrations of this type 
should be conducted to refine this technology so future unmanned 
systems will be able to fully exploit ongoing advances in autonomy.
    Mr. Langevin. In your opinion, are we investing enough in the 
enabling technologies for next-generations sensors--communications, 
advanced processing, and other sensor-independent areas--as well as the 
potential sensors themselves to position ourselves well on the sensing 
and communications side for the battle network competitions of the 
future? What would your ``next dollar'' go to? And are there 
investments that we are making now that risk being stranded?
    Mr. Clark. The Navy is making appropriate investments in new 
sensor, communication, networking, and data processing technologies. 
They are not, however, devoting enough money or effort toward 
transitioning the most useful of these technologies into operationally 
useful systems by incorporating them into acquisition programs or 
demonstrating them with prototype projects in the fleet. The lack of 
priority and selectivity in undersea system development is largely due 
to the lack of operational concepts describing how the Navy will 
conduct future undersea operations. New or modified requirements are 
based on new operational concepts and, in turn, drive the development 
of new acquisition programs.
    There are several key new operational concepts the Navy should 
analyze to determine if they should drive new systems and systems of 
systems, such as:
    <bullet>  Low Frequency Active (LFA) Sonar Anti-Submarine Warfare 
(ASW): The Navy's current ASW concepts center on the use of passive 
sonar to detect and track the noise emanating from an enemy submarine. 
This technique depends on the adversary making noise, which became 
increasing difficult in the late Cold War as the Soviets incorporated 
sound-silencing technology into their submarines. This challenge will 
eventually return as Chinese, Russian, and other nation's submarines 
improve. Further, passive sonar cannot generally detect enemy 
submarines outside the range of submarine-launched anti-ship missiles, 
leaving U.S. surface ships vulnerable to an unwarned attack.
          The Navy needs to consider approaches for surface and air ASW 
        that use LFA sonar, such as in the Littoral Combat Ship (LCS) 
        Variable Depth Sonar (VDS) and the Compact LFA array onboard 
        the Navy's civilian-crewed ocean surveillance (T-AGOS) ship. 
        LFA sonar offers longer detection ranges than passive sonar 
        that can exceed the range of submarine-launched missiles and 
        can translate into greater search areas and faster searches. 
        New concepts could also include the use of LFA sonars on 
        unmanned systems or UUVs that detect submarines and communicate 
        their location to other platforms, or simply drive them away 
        from certain areas. Submarines detected with LFA sonar would 
        then be prosecuted with more accurate passive sensors, or 
        engaged with standoff weapons such as missiles equipped with 
        small torpedoes or depth bombs. While the Navy has some of the 
        technologies needed for these concepts in the fleet or in 
        development, it lacks some pieces of the LFA ASW ``kill 
        chain,'' specifically long-range standoff ASW weapons, unmanned 
        LFA systems, and LFA sensors for combatant ships other than 
        LCS.
    <bullet>  Passive ASW by unmanned systems: Passive sonar detection 
ranges are less than those of submarine-launched weapons, and this 
situation will get worse as adversaries become quieter. Passive sonar 
should therefore move increasingly onto unmanned systems which are not 
as vulnerable to counterattack and which can use emerging undersea 
battle networks to pass contact information to manned or unmanned 
forces that can prosecute submarine contacts. Further, the capability 
of a passive sonar array varies with the size of the sonar array, with 
larger arrays providing greater range and sensitivity. Large arrays are 
difficult to place on a manned or unmanned platform, but could be 
incorporated into a deployable or fixed stationary unmanned sensor 
system such as the Navy's Sound Surveillance System (SOSUS) arrays 
positioned at key chokepoints overseas and around the U.S. coast.
          The Navy needs to expand on SOSUS and similar fixed systems 
        by developing more deployable passive arrays that can be placed 
        at chokepoints, around enemy ports, and adjacent to friendly 
        bases. These systems, depending on their design, can also 
        provide the fiber optic power and communication backbone to 
        connect undersea forces with commanders and support 
        organizations ashore using laser, LED, or acoustic 
        communication gateways. Examples of these arrays include PLUS, 
        the Reliable Acoustic Path (RAP) Vertical Line Array (VLA), and 
        the Shallow Water Surveillance System (SWSS), all of which have 
        been challenged with uncertain funding and support over the 
        last decade. But, as with LFA sonar ASW techniques, the 
        enabling technologies for these approaches are mature; they 
        just have to make it across the technology ``valley of death'' 
        into acquisition programs.
    <bullet>  Counter-UUV technologies: Not much work has been done on 
how to prevent enemy UUVs from attacking U.S. infrastructure or ships. 
As UUV and undersea battle network technologies improve and become more 
widely available, the Navy will need to be able to protect high-value 
targets in the homeland and abroad. Traditional ASW approaches will 
likely not work well against militarized UUVs due to their small size 
and ability to have low radiated noise. New sensor technologies, such 
as high frequency sonar, and passive and active defensive systems will 
be needed to defeat them.
    <bullet>  Power projection from undersea unmanned systems: The 
anti-access capabilities proliferating today above the surface will 
soon expand to include undersea surveillance and attack systems in 
areas adjacent to enemy coasts. The Navy will need to develop concepts 
for conducting surveillance, strike, anti-ship, or cyber/electronic 
warfare operations from unmanned systems to avoid placing manned 
submarines in high-risk areas.
          The key enabling technologies for these concepts include 
        undersea battle networks to support communications between 
        manned submarines and unmanned systems, as well as between 
        submarines and commanders or support organizations ashore (as 
        described in Question 5 above); sensor and contact recognition 
        technologies for unmanned systems; a family of UUVs for various 
        roles; weapons and other payloads that can be deployed by 
        unmanned systems; and power technologies to enable extended 
        unmanned system operations. There are improvements the Navy 
        could make in each of these areas. The need for placing 
        emphasis on battle network signal processing, demonstrations of 
        signal processing technology, and better contact recognition 
        for unmanned systems are described above.
          Regarding UUVs, the Navy as been favoring small ones, such as 
        the approximately 12-inch diameter Mk-18 UUV that ordnance 
        disposal and oceanographic researchers use, and the new Large 
        Displacement UUV (LDUUV) that could be launched from the 
        Virginia Payload Module (VPM) tube. The Navy needs to 
        accelerate its efforts to deploy the 21-inch diameter Modular 
        Heavyweight Underwater Vehicle (MHUV) that will be the size of 
        its current Mk-48 torpedo and use many parts of that weapon. 
        The MHUV will enable a variety of long-range surveillance, 
        strike, and anti-ship operations from submarines that will give 
        them greater standoff capability from threat areas and leverage 
        existing systems and technology. The Navy also needs to 
        increase its research into applications for micro UUVs that are 
        less than six inches in diameter and three to four feet long. 
        New power technologies are enabling these UUVs to achieve 
        ranges and endurance that would make ``swarm'' operations 
        possible in which large numbers of expendable and inexpensive 
        micro UUVs conduct surveillance or attack missions that would 
        otherwise require a much larger reusable vehicle or a 
        submarine.
          Future power projection operations undersea will establish a 
        need for undersea lift, similar to the lift used for amphibious 
        forces above the surface. Payloads such as energy and 
        communication relays, mines, sensor arrays, and other 
        stationary unmanned systems will need to be placed in proximity 
        to enemy coasts or at key chokepoints. For example, DARPA is 
        developing the Upward Falling Payload and HYDRA programs, both 
        of which provide ways of placing payloads on the sea floor. The 
        Navy, however, may not have enough submarines to support future 
        undersea lift operations, or they may not want to place manned 
        submarines at risk to conduct them. The Navy should therefore 
        explore the use of extra-large UUVs (XLUUV) for deploying 
        larger payloads. These UUVs would be launched from shore or 
        large vessels, such as amphibious ships, and have ranges of 
        more than 1000 miles and endurance of six months or more. In 
        addition to lift operations, XLUUVs could also conduct long-
        term surveillance missions that would otherwise require a 
        submarine to be on station for months at a time.
          Conducting undersea lift operations will require that 
        submarines and larger UUVs have systems such as the Universal 
        Launch and Recovery Module (ULRM) that enable deployment and 
        recovery (when needed) of payloads. This system is being 
        developed today for the VPM tube, but variants of it could be 
        used in the future on larger UUVs and by undersea payload 
        modules that deploy smaller UUVs.
          The Navy is developing several weapons, unmanned aerial 
        vehicles (UAVs), and other payloads that could be deployed by 
        unmanned systems. This effort needs to be more organized and 
        guided by new operational concepts that describe how unmanned 
        systems will contribute to undersea power projection operations 
        and take advantage of new technologies for miniaturization of 
        weapon guidance systems and warheads. For example, UUVs can 
        themselves be mines or carry mines to a deployment area with 
        today's level of sensor capability and autonomy. The Navy, 
        however, is not aggressively developing mine payloads for UUVs 
        and is slowly advancing the MHUV (which could likewise be a 
        mine or carry small mines). Similarly, the Navy has 
        experimented with small UAVs being deployed from submarines, 
        but has not yet devised a concept for deploying them from UUVs 
        or for using undersea-launched UAVs in power projection or 
        surveillance operations.
    These are the most significant operational concepts the Navy should 
be developing and analyzing as the basis behind new requirements for 
undersea systems. Operational concepts are essential for identifying 
the most important new technologies and systems to pursue, and to 
establish requirements for future acquisition programs.
    I would recommend the next dollar in undersea system development 
funding go to completing and demonstrating the undersea battle network. 
It is the fundamental capability that will enable UUVs, unmanned 
systems, and submarines to work together to sustain the ability of the 
Navy to project power from the undersea and deny enemies from doing the 
same. After that, funding is needed most urgently for counter-UUV 
technologies, XL and micro UUVs, the ULRM, and small UUV-launched 
payloads.
    Mr. Langevin. In your testimony, you mention the concept that 
manned submarines could become conceptually closer to aircraft carriers 
through the employment of UUVs and coordination of families of systems. 
What, in your view, is holding us back from realizing this vision? Is 
it payload space, autonomy programming, policy limitations, 
communications, technology maturity, or something else?
    Mr. Clark. There are four elements which need to be addressed in 
order for the Navy to shift manned submarines from being only front-
line tactical platforms to being operational level platforms 
controlling a wider undersea force:
    <bullet>  Payload volume: Submarines will be, for the foreseeable 
future, the most secure and accurate means of delivering unmanned 
systems and UUVs to their deployment areas. Although XLUUVs and LDUUVs 
will be able to take on some of this lift mission, they will not 
provide the level of adaptability to changing circumstances, certainty 
of deployment, and security against counter-detection as a submarine. 
This makes VPM tubes or something like them critical in future 
submarines.
    <bullet>  Communication and command and control capabilities: As 
described in Questions 5 and 6, undersea battle networks using laser/
LED and acoustic communications are essential to connect shore bases, 
submarines, and unmanned systems. Submarines, for their part, will need 
a greater number and variety of communication systems to interface with 
this network. In many situations, real-time communications with 
commanders ashore will not be possible due to the low bandwidth of 
long-range acoustic communications. Therefore, submarine commanders 
will be in charge of their local manned and unmanned undersea systems. 
This will require communication and planning capabilities similar to a 
large combatant such as an aircraft carrier or cruiser.
    <bullet>  Submarine-compatible UUVs and UAVs: The Navy is 
developing the LDUUV, MHUV, and interfaces for the Mk-18 UUV to be 
launched from a submarine torpedo tube. The Navy should also be 
developing micro UUVs and interfaces so they can be deployed from the 
submarine three-inch launcher or in larger numbers from torpedo tubes, 
VPM tubes, or by MHUVs. To exploit the potential in small UAVs, the 
Navy should also develop small UAVs that can be carried and launched in 
large numbers from submarines or larger UUVs.
    <bullet>  Launch and recovery systems: Submarines will need 
mechanisms such as the ULRM to deploy and recover unmanned systems and 
UUVs as well as the means to deploy UAVs.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. Is U.S. industry ready to deliver the systems and 
components needed in a competitive and robust way? Has the Navy insured 
that the industrial base, the talent pool, the pipeline of industry 
investment is in the condition needed to deliver? What can Congress do 
to ensure these components are in place?
    Admiral Connor. The Navy has done well to sustain the legacy 
industrial base in areas such as ship building and aircraft production. 
Although it is very expensive to so, it is necessary because the 
country has no viable large commercial ship building companies and only 
one viable large scale commercial aircraft manufacturer. The 
shipbuilding industry in particular is undergoing tremendous work force 
change as older employees approach retirement age. The Navy has 
supported efforts to train the next generation of workers in both 
public and private shipyards.
    Congress can help by supporting a steady production rate with long 
term contracts. These contracts allow prime contractors, subcontractors 
and suppliers to make long term decisions to build and retain a 
sustainable work force.
    The Navy and the DOD have not done very well in leveraging the 
talent that resides in the more dynamic areas of our economy. Most of 
the innovation that takes place in the United States is accomplished by 
small companies using private funds. These companies often avoid 
building products and services for purely governmental functions 
because they perceive that it is too hard to work with government as a 
customer. Therefore, we tend to give most of our business to a 
declining number of companies that know us well and with which we have 
a long history. That could be a handicap, however, when it comes to 
sustaining the ability to repeatedly generate game changing 
innovations.
    To leverage the most dynamic and innovative portion of our economy, 
the Department of Defense should move away from obtuse requirements of 
the Federal Acquisition Regulations and create a face for industry that 
looks and feels like any other commercial entity.
    Mr. Cook. Is the Navy ready to employ these new technologies when 
they are delivered? Have the warfighters developed the Command and 
Control processes and procedures, the rules of use, the common 
operating pictures and methods needed to employ program of record 
delivered systems on the day they are delivered?
    Admiral Connor. Our sailors are very adaptable and will not be the 
limiting factor in how quickly we leverage unmanned systems and exploit 
a better common operating picture. The Maritime Operations Centers 
established nearly navy-wide over the last 5 years or so have 
significantly increased Navy command and control capacity. Providing a 
better common operating picture and delivering more information from 
remote systems will leverage those improvements.
    The Navy has processes such as table top exercises, fleet battle 
experiments, and large scale fleet exercises to gracefully integrate 
new capabilities as they become available.
    Mr. Cook. Is U.S. industry ready to deliver the systems and 
components needed in a competitive and robust way? Has the Navy insured 
that the industrial base, the talent pool, the pipeline of industry 
investment is in the condition needed to deliver? What can Congress do 
to ensure these components are in place?
    Mr. Clark. The Navy has fostered a large and diverse base of small 
companies that develop unmanned systems, communication networks, and 
undersea payloads. These companies, however, will not be able to scale 
the production of these systems up to the level that will be needed to 
create future undersea battle networks and implement new concepts for 
ASW, surveillance, and power projection from undersea. For example, the 
Navy plans to restart the Mk-48 torpedo production line, which will 
likely be a key element in developing and producing the new MHUV UUV. 
The companies bidding on the torpedo restart, however, will likely be 
small companies that may not be able to support expanded production of 
Mk-48 components needed for the MHUV. Similarly, Navy's deployable 
sensor arrays, small UUVs, and UUV-deployable payloads are being 
developed and built at prototype scale by university laboratories and 
small firms that will not able to build these systems in large numbers.
    Making large-scale production of new undersea systems feasible will 
require incentivizing larger industry partners to build them by 
establishing requirements and acquisition programs that focus 
investment on a smaller number of the most useful systems. The Navy is 
in a position to do this now, given its knowledge and experience with 
undersea systems and emerging operational concepts for future undersea 
operations. Congress can help by influencing the Navy to make these 
investment choices and by providing an opportunity to focus its 
investment by adjusting the proposed President's budget during the 
appropriations process. This normally happens a year after the budget 
was developed within the Navy, and Navy officials and analysts likely 
have new insights to better guide spending decisions.
    A significant concern going forward is the nation's talent pool in 
engineering and physics, which form the bulk of technical expertise 
needed for development of undersea systems. Graduate students should be 
incentivized to go into physics and ocean, mechanical, and electrical 
engineering through funding of graduate education and opportunities to 
work in government research organizations.
    Mr. Cook. Is the Navy ready to employ these new technologies when 
they are delivered? Have the warfighters developed the Command and 
Control processes and procedures, the rules of use, the common 
operating pictures and methods needed to employ program of record 
delivered systems on the day they are delivered?
    Mr. Clark. The Navy is making appropriate investments in new 
sensor, communication, networking, and data processing technologies. 
They are not, however, devoting enough money or effort toward 
transitioning the most useful of these technologies into operationally 
useful systems by incorporating them into acquisition programs or 
demonstrating them with prototype projects in the fleet. The lack of 
priority and selectivity in undersea system development is largely due 
to the lack of operational concepts describing how the Navy will 
conduct future undersea operations. New or modified requirements are 
based on new operational concepts and, in turn, drive the development 
of new acquisition programs.
    There are several key new operational concepts the Navy should 
analyze to determine if they should drive new systems and systems of 
systems, such as:
    <bullet>  Low Frequency Active (LFA) Sonar Anti-Submarine Warfare 
(ASW): The Navy's current ASW concepts center on the use of passive 
sonar to detect and track the noise emanating from an enemy submarine. 
This technique depends on the adversary making noise, which became 
increasing difficult in the late Cold War as the Soviets incorporated 
sound-silencing technology into their submarines. This challenge will 
eventually return as Chinese, Russian, and other nation's submarines 
improve. Further, passive sonar cannot generally detect enemy 
submarines outside the range of submarine-launched anti-ship missiles, 
leaving U.S. surface ships vulnerable to an unwarned attack.
          The Navy needs to consider approaches for surface and air ASW 
        that use LFA sonar, such as in the Littoral Combat Ship (LCS) 
        Variable Depth Sonar (VDS) and the Compact LFA array onboard 
        the Navy's civilian-crewed ocean surveillance (T-AGOS) ship. 
        LFA sonar offers longer detection ranges than passive sonar 
        that can exceed the range of submarine-launched missiles and 
        can translate into greater search areas and faster searches. 
        New concepts could also include the use of LFA sonars on 
        unmanned systems or UUVs that detect submarines and communicate 
        their location to other platforms, or simply drive them away 
        from certain areas. Submarines detected with LFA sonar would 
        then be prosecuted with more accurate passive sensors, or 
        engaged with standoff weapons such as missiles equipped with 
        small torpedoes or depth bombs. While the Navy has some of the 
        technologies needed for these concepts in the fleet or in 
        development, it lacks some pieces of the LFA ASW ``kill 
        chain,'' specifically long-range standoff ASW weapons, unmanned 
        LFA systems, and LFA sensors for combatant ships other than 
        LCS.
    <bullet>  Passive ASW by unmanned systems: Passive sonar detection 
ranges are less than those of submarine-launched weapons, and this 
situation will get worse as adversaries become quieter. Passive sonar 
should therefore move increasingly onto unmanned systems which are not 
as vulnerable to counterattack and which can use emerging undersea 
battle networks to pass contact information to manned or unmanned 
forces that can prosecute submarine contacts. Further, the capability 
of a passive sonar array varies with the size of the sonar array, with 
larger arrays providing greater range and sensitivity. Large arrays are 
difficult to place on a manned or unmanned platform, but could be 
incorporated into a deployable or fixed stationary unmanned sensor 
system such as the Navy's Sound Surveillance System (SOSUS) arrays 
positioned at key chokepoints overseas and around the U.S. coast.
          The Navy needs to expand on SOSUS and similar fixed systems 
        by developing more deployable passive arrays that can be placed 
        at chokepoints, around enemy ports, and adjacent to friendly 
        bases. These systems, depending on their design, can also 
        provide the fiber optic power and communication backbone to 
        connect undersea forces with commanders and support 
        organizations ashore using laser, LED, or acoustic 
        communication gateways. Examples of these arrays include PLUS, 
        the Reliable Acoustic Path (RAP) Vertical Line Array (VLA), and 
        the Shallow Water Surveillance System (SWSS), all of which have 
        been challenged with uncertain funding and support over the 
        last decade. But, as with LFA sonar ASW techniques, the 
        enabling technologies for these approaches are mature; they 
        just have to make it across the technology ``valley of death'' 
        into acquisition programs.
    <bullet>  Counter-UUV technologies: Not much work has been done on 
how to prevent enemy UUVs from attacking U.S. infrastructure or ships. 
As UUV and undersea battle network technologies improve and become more 
widely available, the Navy will need to be able to protect high-value 
targets in the homeland and abroad. Traditional ASW approaches will 
likely not work well against militarized UUVs due to their small size 
and ability to have low radiated noise. New sensor technologies, such 
as high frequency sonar, and passive and active defensive systems will 
be needed to defeat them.
    <bullet>  Power projection from undersea unmanned systems: The 
anti-access capabilities proliferating today above the surface will 
soon expand to include undersea surveillance and attack systems in 
areas adjacent to enemy coasts. The Navy will need to develop concepts 
for conducting surveillance, strike, anti-ship, or cyber/electronic 
warfare operations from unmanned systems to avoid placing manned 
submarines in high-risk areas.
          The key enabling technologies for these concepts include 
        undersea battle networks to support communications between 
        manned submarines and unmanned systems, as well as between 
        submarines and commanders or support organizations ashore (as 
        described in Question 5 above); sensor and contact recognition 
        technologies for unmanned systems; a family of UUVs for various 
        roles; weapons and other payloads that can be deployed by 
        unmanned systems; and power technologies to enable extended 
        unmanned system operations. There are improvements the Navy 
        could make in each of these areas. The need for placing 
        emphasis on battle network signal processing, demonstrations of 
        signal processing technology, and better contact recognition 
        for unmanned systems are described above.
          Regarding UUVs, the Navy as been favoring small ones, such as 
        the approximately 12-inch diameter Mk-18 UUV that ordnance 
        disposal and oceanographic researchers use, and the new Large 
        Displacement UUV (LDUUV) that could be launched from the 
        Virginia Payload Module (VPM) tube. The Navy needs to 
        accelerate its efforts to deploy the 21-inch diameter Modular 
        Heavyweight Underwater Vehicle (MHUV) that will be the size of 
        its current Mk-48 torpedo and use many parts of that weapon. 
        The MHUV will enable a variety of long-range surveillance, 
        strike, and anti-ship operations from submarines that will give 
        them greater standoff capability from threat areas and leverage 
        existing systems and technology. The Navy also needs to 
        increase its research into applications for micro UUVs that are 
        less than six inches in diameter and three to four feet long. 
        New power technologies are enabling these UUVs to achieve 
        ranges and endurance that would make ``swarm'' operations 
        possible in which large numbers of expendable and inexpensive 
        micro UUVs conduct surveillance or attack missions that would 
        otherwise require a much larger reusable vehicle or a 
        submarine.
          Future power projection operations undersea will establish a 
        need for undersea lift, similar to the lift used for amphibious 
        forces above the surface. Payloads such as energy and 
        communication relays, mines, sensor arrays, and other 
        stationary unmanned systems will need to be placed in proximity 
        to enemy coasts or at key chokepoints. For example, DARPA is 
        developing the Upward Falling Payload and HYDRA programs, both 
        of which provide ways of placing payloads on the sea floor. The 
        Navy, however, may not have enough submarines to support future 
        undersea lift operations, or they may not want to place manned 
        submarines at risk to conduct them. The Navy should therefore 
        explore the use of extra-large UUVs (XLUUV) for deploying 
        larger payloads. These UUVs would be launched from shore or 
        large vessels, such as amphibious ships, and have ranges of 
        more than 1000 miles and endurance of six months or more. In 
        addition to lift operations, XLUUVs could also conduct long-
        term surveillance missions that would otherwise require a 
        submarine to be on station for months at a time.
          Conducting undersea lift operations will require that 
        submarines and larger UUVs have systems such as the Universal 
        Launch and Recovery Module (ULRM) that enable deployment and 
        recovery (when needed) of payloads. This system is being 
        developed today for the VPM tube, but variants of it could be 
        used in the future on larger UUVs and by undersea payload 
        modules that deploy smaller UUVs.
          The Navy is developing several weapons, unmanned aerial 
        vehicles (UAVs), and other payloads that could be deployed by 
        unmanned systems. This effort needs to be more organized and 
        guided by new operational concepts that describe how unmanned 
        systems will contribute to undersea power projection operations 
        and take advantage of new technologies for miniaturization of 
        weapon guidance systems and warheads. For example, UUVs can 
        themselves be mines or carry mines to a deployment area with 
        today's level of sensor capability and autonomy. The Navy, 
        however, is not aggressively developing mine payloads for UUVs 
        and is slowly advancing the MHUV (which could likewise be a 
        mine or carry small mines). Similarly, the Navy has 
        experimented with small UAVs being deployed from submarines, 
        but has not yet devised a concept for deploying them from UUVs 
        or for using undersea-launched UAVs in power projection or 
        surveillance operations.
    These are the most significant operational concepts the Navy should 
be developing and analyzing as the basis behind new requirements for 
undersea systems. Operational concepts are essential for identifying 
the most important new technologies and systems to pursue, and to 
establish requirements for future acquisition programs.

                                  [all]
                                  
                                  
</pre></body></html>
